<html>
<title> - HUMAN TRAFFICKING: MAIL ORDER BRIDE ABUSES</title>
<body><pre>[Senate Hearing 108-695]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-695

               HUMAN TRAFFICKING: MAIL ORDER BRIDE ABUSES

=======================================================================

                                HEARING

                               BEFORE THE

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JULY 13, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate


                    U.S. GOVERNMENT PRINTING OFFICE
96-804                      WASHINGTON : 2004
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman

CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                 ------                                

                       SUBCOMMITTEE ON EAST ASIAN
                          AND PACIFIC AFFAIRS

                    SAM BROWNBACK, Kansas, Chairman

LAMAR ALEXANDER, Tennessee           JOHN F. KERRY, Massachusetts
CHUCK HAGEL, Nebraska                JOHN D. ROCKEFELLER IV, West 
GEORGE ALLEN, Virginia                   Virginia
GEORGE V. VOINOVICH, Ohio            RUSSELL D. FEINGOLD, Wisconsin
                                     JON S. CORZINE, New Jersey

                                  (ii)

  
?

                            C O N T E N T S

                              ----------                              
                                                                   Page

Brownback, Hon. Sam, U.S. Senator from Kansas, opening statement.     1
    ``A Victim's Story,'' statement submitted for the record.....     2
Cantwell, Hon. Maria, U.S. Senator from Washington...............     4
    Prepared statement...........................................     7
Clark, Ms. Michele A., co-director, Protection Project of the 
  Foreign Policy Institute, Johns Hopkins University, Washington, 
  DC.............................................................    14
    Prepared statement...........................................    16
Hughes, Dr. Donna M., Ph.D., professor, Women's Studies Program, 
  University of Rhode Island, Kingston, RI.......................    23
    Prepared statement...........................................    25
Jackson, Ms. Suzanne H., associate professor of Clinical Law, 
  George Washington University Law School, Washington, DC........    37
    Prepared statement...........................................    40
Miller, Hon. John R., Director, Office to Monitor and Combat 
  Trafficking in Persons, U.S. Department of State, Washington, 
  DC.............................................................    10
    Prepared statement...........................................    12

                                 (iii)

  

 
               HUMAN TRAFFICKING: MAIL ORDER BRIDE ABUSES

                              ----------                              


                         TUESDAY, JULY 13, 2004

                           U.S. Senate,    
                 Subcommittee on East Asian
                               and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met at 3:02 p.m., in room SD-419, Dirksen 
Senate Office Building, Hon. Sam Brownback (chairman of the 
subcommittee), presiding.
    Present: Senator Brownback.


               opening statement of senator sam brownback


    Senator Brownback. I call the subcommittee hearing to 
order.
    Thank you very much for joining us today. We have got three 
panels and a short period of time to do this in. I have an hour 
that we can conduct this hearing. So we will need to move 
through very vigorously.
    Today we will be hearing from three panels on the issues 
surrounding international marriage brokers, so-called mail 
order brides, and the links that can be made to human 
trafficking. I am please to welcome my colleague and friend, 
who will soon appear, Senator Maria Cantwell from the great 
State of Washington, to be our first panel. Senator Cantwell 
has seen abuses against mail order brides occur in her own 
State and has authored the International Marriage Brokers 
Regulation Act. Her passion for protecting women trapped in 
such abusive and dangerous relationships is to be commended.
    On our second panel, we have with us former Washington 
State Congressman, John Miller, who is Director of the Office 
to Monitor and Combat Trafficking in Persons from the State 
Department. He has done exemplary work on the issue of 
trafficking and has gained international respect and 
recognition for that.
    On our third panel, we are pleased to have several experts 
on the issue of human trafficking who will present their views.
    The problem of human trafficking has garnered significant 
support and attention over the past few years. Just last 
September before the United Nations, President Bush's words 
represented a truly historic moment in the war to free the 
millions of innocent human beings who suffer as slaves in the 
sex industry or in other forms of forced labor. Both the 
Trafficking Victims Protection Act of 2000 and the Trafficking 
Victims Reauthorization Act of 2003 have indicated major steps 
by the U.S. Congress to eradicate this form of slavery.
    Today's hearing will focus specifically on the topic of 
international marriage brokers and international matchmaking 
organizations, IMO's, who facilitate the exchange between mail 
sponsors and female mail order brides. Senator Cantwell knows 
all too well the story of Anastasia King, a mail order bride 
who was abused and eventually murdered by her sponsor husband. 
Several reports and news articles have indicated in recent 
years the disturbing trend of mail order brides who suffer from 
domestic abuse. In addition to the reports of domestic abuse, 
several of our witnesses here today will speak to the 
connection between human trafficking, organized crime, and 
these matchmaking industries.
    It is my hope that this hearing will serve to educate us in 
the Senate, bring awareness and attention to the issue, and 
propel it forward in considering how best to protect the many 
victims of abuse and trafficking that have arrived through 
seemingly legitimate matchmaking organizations.
    I want to describe just one story of one victim. I will not 
put forth her name to protect her identity. I will submit her 
full written statement for the record.
    [The statement referred to follows:]

                            A VICTIM'S STORY

    I swear this statement is true.
    I was born in the capital city of Ethiopia. I am 29 years old. I 
have two younger brothers. My mom is a strong and courageous woman who 
supports her family and sacrifices her life for her children. My father 
was passed away for long time ago. My mom is an accountant and my 
father was a teacher. I have a very good family and I was so happy.
    I was grown up in a big city in Addis Ababa. 2.5 million people are 
living in Addis Ababa. I went different schools for elementary and 
secondary class.
    I joined a college and working in part time. My mom help me half of 
my tuition and I paid half of it. My mom did this for me and for my 
younger brother to help us to be educated.
    One after noon when I went to the library to study and also I was 
missed one class so I just try to find if some one had a class note. I 
want to look at it before I will go to class. That is the beginning of 
my new story. I was asking a girl. She was at in the library at that 
time to borrow her class note and look at it. When I got her exercise 
book. I found a lot of men picture and it describes their age, weight, 
height, hobby, profession and so on. They want to meet some one for 
relationship. I never heard and saw it before. I knew something about 
pen pal. Pen pal you can buy from different organization or you can 
find without cost and it is different from this dating service. She 
explained it to me. She said it is the same like pen pal you can write 
them its good for your English and it is fun. I am not the only one 
that day to saw those picture. This was around exam time I remembered. 
She photocopied and gave it to me. We just pick what ever we want even 
most of us pick the same person. It was not a big deal in a foreign 
country to whom one writes letters but whom one has never met in 
person. I never heard in my whole life some one married or get a boy 
friend from dating service.
    After the exam it was winter. In Ethiopia June, July, and August 
are winter and the school all over the country will closed. I get the 
address on May but I didn't write. I even did not think about it. When 
I was to sell my old book. I found it again. I decided to write and I 
did. He described him self and his profession is a consultant. I 
started writing a letter by describing my self and included my picture 
that was it from the beginning.
    After three weeks I received two letters from him including his 
picture. He described him self-different in his first letter for me. He 
said he is a doctor. He does not want to say it the truth about his 
profession on those dating services. I went to show to my friends. 
Because his reaction is so fast. I always received a letter from him 
including his picture and business card every time. He also asked me to 
call him. It so expensive for me to call him. I said I couldn't call 
you. He asked my phone number. I wrote and sent it to him. Then he 
started calling me every other day, night, day midnight it was so 
interesting. He told me he love. For me personally it was so funny and 
I do not know what is going on. When he said I love you, I did too. I 
was sure I would never see him in person. He is from far so I do not 
care to say I love you. It was fun to my younger brother to answer his 
phone too just to took in English.
    He was serious and sends me every time money, clothes and different 
kinds of gifts. He also asked to marry him. I said yes. I was sure I 
would never see him. He will never come. When be sends a weeding dress 
I was so scared. It was impossible to me some one interested in me even 
he do not know me in person.
    He came finally. He was handsome, seems a good Christian, carrying, 
generous and loving person. I was asked him why he was interested in me 
and why he didn't married in his country. He told me every one want him 
because he is a doctor and has a lot of money not for love. I thought 
he really want a good marriage. I felt I was blessed. I do not have any 
reason to stop marrying him it was so blessing to met some one perfect 
in my eyes for that time. I married him. Every one was so happy for me 
and it was just like a dream. We had a very good time. He told me he 
will going to apply a visa for me to come to united states. The Visa he 
wants to apply was a fiance visa. He explained it takes only a few 
months. He said it is easy and it doesn't take long time. He said if he 
apply marriage visa it takes more than a year. I do not have any idea 
about visa. I was agreeing with him what ever he said. I knew he care 
for me and he is also smart and knew everything about his country.
    American embassy sends me visa application. After a few months he 
left. I was scanning and email every document I got from American 
embassy because he asked me to do it. He filled all the application and 
sent it to me to return back to American embassy in Ethiopia. Finally I 
got a visa. I was planning to stay a little bit longer before I leave. 
I have to get done a lot of things. But he made me hurry. I came after 
I got a visa two weeks. I was happy and I can't wait to see him and to 
live with him.
    Second part of my story was so scary. I never expect from him this 
king of reaction. I was stayed in his house for three days. He is so 
different. He started abused me physically and mentally. I was so 
confused. I didn't believe what was happened. I was so scared to death. 
He drugged me too sleep long hour. I knew my life is in danger and it 
will be over. I can read from his eyes. The way he looks at me was so 
different and he gave me wrong information about American people. He 
told me to stay in the bedroom. He told me in this country if some one 
killed some one and has a lot of money. He will never go to prison. He 
showed me a lot of scary movies. I was cried every day and waiting 
death. He told me if I went out side and the police found me. They will 
arrest me and put me in Jail. He told me before I came do not bring 
money and clothes. But I did and he was so mad and spent all my money. 
He also had my passport. I do not have any identification with me.
    We stayed almost five places with in a month that was so scary too 
because it seems he try to hid him self. Even he told me I will 
arrested and go to prison if the police found me. I prefer to stay in 
jail rather than dying. At that moment we were stayed in motel. I went 
out to took to front desk to asked help and they called to the police. 
The police took me to the women shelter. After a few days he killed him 
self.
    With in a month my life is up side down. I do not know what going 
to happen next and I do not want to go back home because I was 
experienced most of Ethiopian didn't respect a widower. I knew it 
because my mom is a widower too. I was just lost and sick. Here I am 
with out a closure what was happened and anger, depression, guilt. I do 
not have answer for this all my question and I will carry this all for 
the rest of my life.

            Name withheld.

    Senator Brownback. This one particular bride, so to speak, 
a native of Ethiopia, was introduced to the concept of 
matchmaking organizations through an acquaintance at school. 
While in college, she decided to practice her English by 
sending an e-mail to her new pen pal. She immediately received 
pictures and letters of this man and soon thereafter he started 
calling her. Eventually she received money and clothes and then 
a marriage proposal. Throughout their Internet courtship, she 
never believed there was a future for her in the United States. 
However, 2 weeks after her visa was completed, she arrived in 
the United States and married the man she had corresponded with 
for several months.
    Upon arrival in the United States, the victim's dreams of 
the fairy tale marriage to a caring and loving husband began to 
unravel when she was forced to stay in the house for the first 
3 days. Then he began abusing her both physically and mentally. 
Her new husband, an anesthesiologist, drugged her, forcing her 
to stay in the bedroom. Her own words profoundly express the 
fear that she suffered. ``He showed me a lot of scary movies. I 
cried every day and waiting for death. He told me if I went 
outside and the police found me, they will arrest me and put me 
in jail. He told me before I came, do not bring money and 
clothes, but I did and he was so mad and spent all my money. He 
also had my passport. I do not have any identification with me. 
We stayed in almost five places within a month that was so 
scary too because it seems he tried to hide himself.''
    Eventually this victim was able to escape and found a 
women's shelter. Her husband killed himself. She says of the 
experience, ``Here I am without a closure what has happened and 
angry and depressed and guilty. I do not have answer for this 
all my question and I will carry this all for the rest of my 
life.''
    This victim was able to present ample evidence 
demonstrating that her husband brought her to the United States 
under fraudulent claims, and that he tortured her for several 
weeks indicating that he intended only to use her as a sex 
slave. She was granted a T-visa and was able to receive much 
needed medical and psychological care. And I am pleased to 
report that she lives, attends college, and works in her 
community today. The emotional and physical trauma that she 
endured will, indeed, affect the rest of her life, but I 
commend her strength and integrity for sharing her personal 
tragedy with us. There are many other victims who have been 
silenced by similar abuse.
    I recognize the many legitimate matchmaking organizations 
and do not wish to undermine them, but I hope that many of the 
IMOs that make themselves available on our Internet today will 
also take an initiative to protect women from abuse and 
potential trafficking.
    I want to thank you all for being here today. I want to 
particularly recognize and thank the Honorable Maria Cantwell, 
who put forward this legislation that hopefully we will be able 
to consider and pass by this committee and get it moving 
forward, and for her testimony here today. Senator Cantwell.

 STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman, and thank you 
for this opportunity to address the committee and I certainly 
appreciate your interest in this issue that is of growing 
epidemic proportions. I certainly look forward to working with 
you and the committee on Senate bill 1455 or various additions 
or versions of Senate bill 1455 that might be able to make its 
way through the U.S. Senate. So again, thank you for this 
opportunity.
    I also want to thank you for working with me to help bring 
the nexus recognition between human trafficking and the 
problems of international marriage brokers, and I would like to 
say quickly that I had the pleasure last week of meeting with 
former Congressman John Miller, Director of the State 
Department Office to Monitor and Combat Trafficking in Persons. 
The Trafficking Victims Protection Reauthorization Act, passed 
by Congress and signed by the President last December, actually 
raises the specter of Congressman Miller's position to the rank 
of Ambassador-at-Large, calling for an appointment by the 
President with the advice and consent of the Senate. So I hope 
that Congressman Miller's presence here today will help 
expedite his speedy consideration by this committee and hope 
that the Senate gives his nomination a speedy approval.
    Human trafficking is the politic way of describing of what 
is really modern-day slavery. Last month the U.S. State 
Department Office to Monitor and Combat Trafficking in Persons 
released a new report estimating that between 800,000 and 
900,000 men, women, and children are trafficked across 
international borders every year. The report estimates that 
18,000 to 20,000 people are trafficked into the United States 
each year.
    When we talk about human trafficking and abuse, we need to 
be aware of the advent of for-profit international marriage 
brokers, companies that operate solely to connect men and women 
of different nations with the intent of getting married.
    The use of these marriage broker services has exploded in 
recent years with the growth of the Internet. Web sites such as 
www.goodwife.com, www.womenrussia.com, and 
www.filipinaladies.com tout young women looking for love and 
marriage. In 1999 the Immigration and Naturalization Service 
commissioned a study that found that more than 200 
international marriage broker operations were operating around 
the globe, arranging between 4,000 and 6,000 marriages between 
American men and foreign women every year. Today experts put 
the number of international marriage brokers at nearly 500 
worldwide. And based on 1999 statistics, there are between 
20,000 and 30,000 women who have entered the United States 
using an international marriage broker in the last 5 years.
    Unfortunately, women meeting their husbands through brokers 
frequently have little opportunity to get to know their 
prospective spouse or assess the potential for violence. They 
also have little knowledge of their rights as victims of 
domestic violence in our country even if they are not yet 
citizens or permanent residents. And tragically it is becoming 
apparent that there is a growing epidemic of domestic violence 
and abuse among couples who met via international marriage 
brokers. Immigrant groups and women advocacy groups across the 
country report seeing an increase in the number of these wives 
seeking to escape physical abuse from husbands that they met 
through international marriage brokers. And in several cases, 
the abuse has progressed to murder.
    In my home State of Washington, we know of at least two 
cases of women who met their husbands through Internet-based 
international marriage brokers. The first one, Susanna 
Blackwell, met her husband, Timothy Blackwell, through an 
international marriage broker, and in 1994, left her native 
Philippines to move to Washington to marry him. During their 
short marriage, Mr. Blackwell physically abused his wife 
regularly. Within a few months, Susanna decided to leave her 
husband and started divorce proceedings. The Blackwells had 
been separated for more than a year, and on the last day of the 
divorce proceeding, Mr. Blackwell shot and killed Susanna and 
two of her friends who were waiting outside the Seattle 
courtroom.
    In 1999, an 18-year-old Anastasia Solovyova married Indle 
King, a man she met through an international marriage broker. 
Entries from Anastasia's diary detail the abuse she suffered at 
the hands of her husband and how she feared him. According to 
Anastasia's diary, Mr. King threatened Anastasia with death if 
she were to leave him, and unfortunately in December of 2000, 
that threat came through when Indle King killed Anastasia.
    At trial, it was discovered that Mr. King had previously 
married another woman that he had met through an international 
marriage broker organization. His first wife instituted a 
domestic violence protection order against Mr. King prior to 
divorcing him in 1997, some information that was not made 
available to Anastasia King when she entered the United States.
    Sadly there are similar examples of violence across the 
country of women who have met their American spouses through 
Internet-based marriage brokers only to be seriously injured or 
killed by an American spouse with a preexisting history of 
violence against women.
    In response to those cases, I have introduced the 
International Marriage Broker Regulation Act, S. 1455. The 
legislation is modeled on groundbreaking legislation passed in 
the State of Washington related to trafficking of persons and 
called the mail order bride legislation.
    The primary goal of the legislation is to better inform 
women entering this country as to the prospects of their spouse 
and past activity and domestic violence history prior to them 
coming to the United States and marrying the individuals.
    The bill would first halt the current practice of allowing 
Americans to simultaneously seek visas for multiple fiancees by 
requiring that only one fiancee visa may be sought per 
applicant each year. What we are finding in many of these cases 
is that men put in for many, many different women at the same 
time coming to the United States.
    Currently multiple requests for fiancee visas can be 
simultaneously filed with the Bureau of Citizenship and 
Immigration, and the American requesting the visa will simply 
choose to marry the first woman who is approved.
    Second, the international marriage broker legislation would 
require that brokers would be required to ask American clients 
to provide information on previous arrests, convictions, or 
court order restrictions relating to crimes of violence, along 
with previous marital history. This information would also be 
made available to the foreign national.
    Finally, the legislation would require a U.S. citizen 
seeking a foreign fiancee visa to undergo a criminal background 
check, a check that is already performed for the fiancee 
entering the United States. Information on convictions and 
civil orders would be relayed to the visa applicant by the 
consular official, along with information of their legal rights 
should they find themselves in an abusive relationship.
    Today an American seeking to marry someone through an 
international marriage broker holds all the cards. The American 
client has the benefit of a complete background check on his 
future wife, which is a requirement of the immigration process. 
In addition, the brokers provide clients extensive information 
about the women they offer, everything from favorite hobbies to 
movies and other past activities.
    Conversely, the foreign fiancee only gets whatever 
information her future spouse wants to share. These women have 
no way of confirming what they are told about the previous 
marriages or relationships or the client's criminal history.
    Most of the foreign brides advertised by the international 
brokers come from countries where women are oppressed, have few 
educational and professional opportunities, and in some cases 
are countries where domestic violence against women is 
condoned, if not encouraged. Because of the cultural 
differences, researchers say there is an inherent imbalance of 
power in these relationships between American men and foreign 
women.
    Senate bill 1455 would give foreign fiancees critical 
information they need to make informed decisions about the 
person whom they plan to marry. It puts these foreign brides on 
more equal footing with their American grooms.
    Mr. Chairman, I thank you for the opportunity to address 
this issue before the committee, and I look forward to working 
with you on ways that we might foster the freedom and free will 
of individuals throughout the world who are brought here to the 
United States.
    [The prepared statement of Senator Cantwell follows:]

              Prepared Statement of Senator Maria Cantwell

    Mr. Chairman, thank you for inviting me to testify before the 
committee today. I also want to thank you for working with me to bring 
recognition to the nexus between human trafficking and problems with 
international marriage brokers.
    I would like to say, quickly, that I had the pleasure of meeting 
with John Miller, Director of the State Department's Office to Monitor 
and Combat Trafficking in Persons, just last week. The Trafficking 
Victims Protection Reauthorization Act, passed by Congress and signed 
by the President last December 19, actually raises the specter of Mr. 
Miller's position to the rank of Ambassador-at-Large, calling for an 
appointment by the President with the advice and consent of the Senate. 
Having received the appointment, I would also like to say that I hope 
for a speedy consent to John's nomination.
    Human trafficking is the politic way of describing modern-day 
slavery. Last month the U.S. State Department's Office to Monitor and 
Combat Trafficking in Persons released a new report estimating that 
between 800,000 and 900,000 men, women, and children are trafficked 
across international borders every year. The report estimates that 
18,000 and 20,000 people are trafficked into the United States each 
year.
    When we talk about human trafficking and abuse, we need to also be 
aware of the advent of for-profit international marriage brokers 
[IMBs]--companies that operate solely to connect men and women of 
different nations with the intent of getting married.
    The use of these marriage broker services has exploded in recent 
years with the growth of the Internet. Web sites such as 
www.goodwife.com; www.womenrussia.com and www.filipinaladies.com tout 
young women looking for love and marriage. In 1999 the Immigration and 
Naturalization Service commissioned a study that found more than 200 
IMBs operating around the globe, arranging between 4,000 and 6,000 
marriages between American men and foreign women every year. Today, 
experts put the number of international marriage brokers at nearly 500 
worldwide. And based on the 1999 statistics, there are between 20,000 
and 30,000 women who have entered the U.S. using an international 
marriage broker in the past five years. While there are a few brokers 
aimed at American female clients who are seeking male spouses from 
other countries, the overwhelming majority of people who seek IMB 
services are men.
    Unfortunately, women meeting their husbands through brokers 
frequently have little opportunity to get to know their prospective 
spouses or assess their potential for violence. They also have little 
knowledge of their rights as victims of domestic violence in our 
country, even if they are not yet citizens or permanent residents. And 
tragically, it is becoming apparent that there is a growing epidemic of 
domestic abuse among couples who meet via international marriage 
brokers. Immigrant and women's advocacy groups across the country 
report seeing an increase in the number of these wives seeking to 
escape a physically abusive husband they met through an IMB. And in 
several cases, the abuse has progressed to murder.
    In my home state of Washington, we know of at least three cases of 
serious domestic violence including two murders of women who met their 
husbands through Internet-based international marriage brokers.
    Susanna Blackwell met her husband, Timothy Blackwell, through an 
international marriage broker and, in 1994, left her native Philippines 
to move to Washington to marry him. During their short marriage, Mr. 
Blackwell physically abused his wife regularly. Within a few months, 
Susanna decided to leave her husband and started divorce proceedings. 
The Blackwells had been separated for more than a year when Mr. 
Blackwell learned Susanna was eight-months pregnant with another man's 
child. On the last day of the divorce proceedings, Mr. Blackwell shot 
and killed Susanna, her unborn child, and two friends who were waiting 
outside of the Seattle courtroom.
    In 1999, 18-year-old Anastasia Solovyova married Indle King, a man 
she met through an international marriage broker. Entries from 
Anastasia's diary detail the abuse she suffered at the hands of her 
husband and the fear she had for him. According to Anastasia's diary, 
Mr. King threatened Anastasia with death if she were to leave him; and, 
in December 2000, this threat came true.
    At trial, it was discovered that Mr. King had been previously 
married to another woman he met through an Internet-based IMB, as well, 
a woman who instituted a domestic violence protection order against Mr. 
King prior to divorcing him in 1997. It was also discovered that he was 
seeking his third wife through another international marriage broker 
when he developed the plot to kill Anastasia.
    Sadly, there are similar examples across the country of women who 
have met their American spouses through an Internet-based marriage 
broker only to be seriously injured or killed by an American spouse 
with a pre-existing history of violence against women.
    In response to these cases, I introduced the International Marriage 
Broker Regulation Act (S. 1455). This legislation is modeled on a 
series of groundbreaking Washington State laws related to trafficking 
of persons and ``mail order brides.''
    The primary goal of my legislation is to better inform women 
entering this country as a prospective spouse about the past history of 
the man she may be marrying and to better inform them of their rights 
as residents of the United States if they become victims of domestic 
violence.
    The bill would, first, halt the current practice of allowing 
Americans to simultaneously seek visas for multiple fiancees by 
requiring that only one fiancee visa may be sought per applicant each 
year. Currently, multiple requests for fiancee visas can be 
simultaneously filed with the Bureau of Citizenship and Immigration, 
and the American requesting the visa will simply choose to marry the 
first woman who is approved.
    Second, my bill would require that, before an international 
marriage broker may release the contact information of a foreign 
national client, the broker must first obtain her consent to the 
release of that information and provide her with information, in her 
own language, on the rights of victims of domestic violence in this 
country.
    Third, the international marriage broker would be required to ask 
American clients to provide information on any previous arrest, 
conviction or court-ordered restriction relating to crimes of violence 
along with their previous marital history. This information would also 
be made available to the foreign national.
    Finally, it would require a U.S. citizen seeking a foreign fiancee 
visa to undergo a criminal background check, a check that is already 
performed for the fiancees entering the country themselves. Information 
on convictions and civil orders would be relayed to the visa applicant 
by the consular official along with information on their legal rights 
should they find themselves in an abusive relationship.
    Today, an American seeking to marry someone through an 
international marriage broker holds all of the cards. The American 
client has the benefit of a complete background check on his future 
wife, which is a requirement of the immigration process. In addition, 
the brokers provide clients extensive information about the women they 
offer, everything from their favorite movies and hobbies to whether 
they are sexually promiscuous.
    Conversely, the foreign fiancee only gets whatever information her 
future spouse wants to share. These women have no way of confirming 
what they are told about previous marriages or relationships--or the 
American client's criminal history.
    Most of the foreign brides advertised by the international marriage 
brokers come from countries where women are oppressed, have few 
educational or professional opportunities, and where violence against 
women is condoned, if not encouraged. Because of the cultural 
differences, researchers say there is an inherent imbalance of power in 
these relationships between American men and foreign women.
    Because these women often immigrate alone, they have no family or 
other support network and rely on their husbands for everything. Such 
dependency can make it difficult for a wife to report abuse without 
worrying that doing so is a surefire ticket to deportation. Researchers 
agree that isolation and dependency put these women at greater risk of 
domestic abuse.
    Documenting the extent of this problem has been quite difficult. 
Marriages arranged by brokers are not tracked separately from other 
immigrant marriages. However, experts agree that abuse is more likely 
in such arranged marriages and that abuse in these relationships is 
likely underreported since the women are likely to be more afraid of 
deportation than the abuse they suffer at home.
    My legislation would give foreign fiancees critical information 
they need to make an informed decision about the person whom they plan 
to marry. It puts these foreign brides on more equal footing with their 
American grooms.
    Thank you, again, for this opportunity to come before you and 
address the unique intersection of trafficking of persons and the use 
of international marriage brokers. I look forward to working with all 
of you so that we might foster the freedom and free will of individuals 
throughout the world and here at home in the United States.

    Senator Brownback. Thank you, Senator Cantwell, and thank 
you for your work on this.
    One question just pops out immediately. Why would a foreign 
bride do this? Why would she come with that lack of 
information? As you have visited with some of the women who 
have been caught in this type of situation, why would they even 
subject themselves to these possibilities?
    Senator Cantwell. These women oftentimes come from very 
poor economic circumstances. The family of Anastasia King 
shared with me the stories of their daughter's hopes and dreams 
of coming to America. Often the daughter represents a link to a 
new opportunity in America that perhaps once this union is 
brought together, that maybe there are other opportunities for 
other family members. So while I think the Anastasia King 
family was very anxious about her situation of going abroad and 
marrying, they thought that it was the best way for her to have 
economic opportunity in the future and perhaps thought that 
there might be a day and time in which they might join her in 
America.
    Senator Brownback. And that seems to be the pretty 
consistent theme that you see coming forward of why people 
would be willing to subject themselves with a lack of data or 
information that they might have about the husband they would 
be marrying in the United States?
    Senator Cantwell. I do not know of any wealthy, well-
educated, well-to-do women who have applied for these brokered 
licenses.
    Senator Brownback. Thank you very much, Senator Cantwell, 
for your presentation, for your push on this topic. I think it 
is incredibly important and I appreciate your diligence in 
moving it forward.
    Senator Cantwell. Thank you, Mr. Chairman. I look forward 
to working with you on the issue.
    Senator Brownback. Same here.
    Next, on our second panel, we will hear from the Honorable 
John Miller. He is the Director of the Trafficking in Persons 
Office at the Department of State. Director and hopefully soon-
to-be Ambassador Miller, I look forward to your presentation.

 STATEMENT OF HON. JOHN R. MILLER, DIRECTOR, OFFICE TO MONITOR 
  AND COMBAT TRAFFICKING IN PERSONS, U.S. DEPARTMENT OF STATE

    Mr. Miller. Thank you, Senator. First, I want to salute 
both you and Senator Cantwell. I want to salute you for your 
work over the years on this premier 21st century human rights 
issue, slavery, and all that you have done. I want to salute 
Senator Cantwell, a Senator from my home State, for taking the 
lead with this Senate bill 1455 to address an important 
component of the slavery issue. I think you are both to be 
commended.
    Fortunately, we have on the next panel some distinguished 
NGO witnesses who have worked with this issue and will have 
some specific illustrations of what is involved.
    I want to focus, if I can, on the worldwide perspective 
here. When you look at the slavery issue, we now have reason to 
believe that 80 percent of the millions that are in slavery, 
internal or external traffic victims, 80 percent are women and 
50 percent are children. The two biggest categories are sex 
slavery and probably domestic servitude. I think these are two 
of the categories of slavery that you frequently have that 
victims that you and Senator Cantwell have described end up in.
    What do we know about trafficked victims in general? Well, 
there are two or three characteristics. There is the 
vulnerability of the victims. Senator Cantwell alluded to that. 
There is the deception, the key tool of the traffickers, and 
often there is government complicity and corruption. Well, if 
you look at marriage brokering, you have these features, 
particularly the first two features, the vulnerability of the 
women and the deception involved. These are features that we 
have to deal with.
    What we are talking about here, of course, are individuals. 
Research is hard to come by in terms of generalizations or 
numbers on this issue, but we know from rural villages in Asia 
to slums in major South American cities, women are deceived 
into leaving their homes and traveling across international 
borders in the hopes of marrying men who can provide them 
better lives.
    Sometimes the traffickers recruit the victims through 
direct offers on the spot. I am going to give an example of 
that. Sometimes there is negotiating through a member of the 
family, a broker. Sometimes it is through newspaper or mail or 
the Internet. Invariably there is a cash payment involved.
    Let me just give one example because this is somebody I met 
in Cambodia. I visited a faith-based shelter, the White Lotus, 
in Phnom Penh, and while there, I met a woman who appeared to 
me to be very elderly. I was told that she was dying of 
sexually transmitted diseases. She did not have long to live, 
and I asked her to tell me her story.
    Pou--that was her name--said that at the age of 17, a man 
had come to her rural village in Cambodia and arranged through 
her sister to marry her. The day after the marriage, the man, 
the ``husband,'' took Pou to another village, a fishing 
village, where he said he was going to go to work. He took her 
to a hotel or what she thought was a hotel. She woke up the 
next morning. Her husband was gone. The hotel turned out to be 
a brothel. She had been sold, sold into captivity. After 
threats and beatings, she was told she had to pay off this huge 
debt, the purchase price, before she had any hope of freedom. 
She spent years ``servicing'' men.
    She finally was released not because she had paid off the 
debt. She was released because she had been ravaged by disease 
and the brothel considered her disposable. They just threw her 
out on the street basically. She wandered to Phnom Penh where 
she found this shelter.
    At the end of the interview, I looked at this elderly woman 
and I said, how old are you? And she said to me, 24. That is 
what had happened in the course of 7 years.
    In some villages in South Asia, they are now taking 
Polaroid photographs of men who come to communities and take a 
bride and posting the photographs in nearby villages because 
they are so concerned of this multiple operation. This man who 
took Pou I am sure had done that scores of times and was going 
to do it scores of times again. It gets to the dialog Senator 
Cantwell and you had about seeking multiple fiancees.
    Well, those photos--that is a good technique where there is 
a direct operation. But of course, we are dealing here with 
methods that are far from direct. You are dealing, when you are 
talking about the United States and women coming from abroad, 
with the mail, you are dealing with newspaper advertisements, 
you are dealing primarily with the Internet. You are dealing 
with marriage brokers, legal brokers, who for a fee introduce 
prospective brides to wealthier foreign men and, unfortunately 
in a significant number of cases, facilitate trafficking in 
persons.
    We know, as I say, this is going on all over the world. 
Just to give another example, we receive reports there is 
extensive trafficking of women from Vietnam to Taiwan. They are 
married to Taiwanese men, and then when they are transported to 
Taiwan, they end up in the brothels. I mentioned examples from 
Asia, Cambodia, Taiwan, Vietnam, but it is a worldwide 
phenomenon. Just as trafficking not only extends to other 
countries in the world and extends to the United States, we can 
say that this form of trafficking, as you have heard from the 
examples from the State of Washington given by Senator 
Cantwell, extends to this country.
    So I applaud your efforts, Mr. Chairman, and Senator 
Cantwell's efforts to tighten oversight of marriage brokers 
operating in the United States in order to prevent the abuse of 
vulnerable women and children. Thank you.
    [The prepared statement of Mr. Miller follows:]

               Prepared Statement of Hon. John R. Miller

 EXPLORING POTENTIAL LINKS BETWEEN HUMAN TRAFFICKING AND INTERNATIONAL 
                           MARRIAGE BROKERING

    Thank you, Mr. Chairman. It is an honor to appear before you. You 
have devoted great energy to making America a leader in the global 
effort to eradicate trafficking in persons, and you have made a 
tremendous difference in the lives of many people around the world. I 
salute you for your humanitarian work.
    I also salute Senator Cantwell for her humanitarian concern and for 
introducing the International Marriage Broker Regulation Act.
    Today, as we approach the topic of international marriage brokering 
and its potential links to human trafficking, it is important for us to 
remember the humanity of the trafficking issue--not just the 
legalities--because it is, after all, real people we seek to protect.
    I have met men, women, and children around the world who have been 
recruited, deceived, forced, and coerced into unimaginable situations 
where they are deprived of their freedom, stripped of their dignity, 
and abused into hopelessness. I have seen and heard of people who have 
been bought and sold into domestic servitude, commercial sexual 
exploitation, child soldiering, forced labor, and camel jockeying. 
These modern-day forms of slavery are brutal not just to the minds and 
bodies of victims, but to their souls.
    That's why the United States, under the leadership of Congress and 
President Bush, is taking strong action, in cooperation with other 
nations, to end human trafficking. We have 11 U.S. government agencies 
executing strategic anti-trafficking in persons plans through the 
President's Interagency Task Force on Trafficking in Persons. The U.S. 
devoted more than $70 million in the last fiscal year to anti-
trafficking programs abroad to prevent trafficking, protect victims, 
and prosecute traffickers. We issue the most comprehensive report on 
trafficking in persons in an effort to stimulate greater government 
action around the world, and we are aggressively stepping up 
prosecution and public education efforts here at home.
    It is from a worldwide perspective, however, that I am here to 
speak with you. Without a doubt, there are many things we still are 
striving to understand about this criminal phenomenon known as human 
trafficking. But as we get further into our research and examine 
trends, we certainly are identifying common threads that bind disparate 
trafficking scenarios together.

Vulnerability of victims
    First, we know that in a vast majority of human trafficking cases, 
the victims are from vulnerable populations. Traffickers prey on those 
they deem easier targets: those with little or no financial means who 
might be lured by promises of food, money, and shelter; innocent 
children who have no means of physically defending themselves; and 
people who have been given few or no educational opportunities. In many 
cases, traffickers rely on psychological coercion to take advantage of 
vulnerable people, but they also use physical force to profit in human 
misery. Our most recent estimates reveal that 80 percent of trafficking 
victims worldwide are female and 50 percent are children.

Deception as a key tool of traffickers
    Second, through data collection and research conducted as part of 
our preparation of the congressionally mandated ``Trafficking in 
Persons Report,'' we find that most traffickers offer victims false 
promises of better lives. Taking advantage of the financial 
vulnerability I just mentioned, human traffickers deceive victims with 
non-existent job opportunities, financial windfall, and much improved 
living conditions. Victims often believe these lies because they have 
seen glimpses of other cultures in the media or have heard supposed 
``success stories'' from others who have left the country to pursue 
their dreams. Sadly, deception is even sometimes used by people they 
trust who get money for signing friends or relatives up for human 
trafficking situations.

Corruption as a contributing factor
    A third thread we have identified in the fight against human 
trafficking is the role of systemic corruption, which provides valuable 
cover for those who trade in people. Where governments are not trusted 
and not perceived as upholding justice, citizens lose confidence in 
their ability to thrive in those nations. They become more desperate 
and willing to take unwise risks, making them more prone to trafficking 
schemes. Furthermore, when they get in difficult or potentially 
criminal situations, victims fear, rather than seek out, government 
intervention. This cycle of corruption and distrust fuels economic 
instability, destroys confidence in the legal system, and undermines 
the rule of law.
    So how do vulnerability, deception, and corruption relate to a 
potential link between marriage brokering and human trafficking?
    Traffickers rely on the vulnerable, and taking a woman out of her 
community, transporting her from her country, and making her dependent 
on a foreign man in a foreign land makes her ripe for exploitation.
    Many women in less developed countries long for a move to a more 
developed country where life is thought to be easier. One way ``out'' 
for women in economically depressed communities is to marry citizens of 
more developed countries. And where governments offer no civil 
protections, this option leaves women with little information about 
their prospective marriage matches and whether they have been married 
before, have criminal records, etc.
    Traffickers are documented to have used offers of marriage to 
recruit women for the sex trade and for forced labor. From rural 
villages in Asia to slums in major South American cities, women are 
deceived into leaving their homes and traveling across international 
borders in the hopes of marrying men who can provide them better lives. 
This vulnerability of disadvantaged women is well known to traffickers.
    Some human traffickers recruit victims through direct offers of 
marriages, negotiating directly with the woman or her family for a 
promise of marriage, after which she is delivered to a brothel or a 
sweatshop by the ``husband,'' who is rewarded with a cash payment from 
the brothel keeper or sweatshop manager for the delivery of his slave.
    This was the case with a woman I met in Asia in February. Pou was 
17 when a man came to her village and arranged through her sister to 
marry her. Shortly after the marriage, the man took Pou to a fishing 
village and sold her to a brothel. After years of abuse and torment, 
Pou was released by the brothel. Today her body is ravaged by disease, 
and this woman in her 20s looks decades older than her real age. Yet 
she wants her story told.
    To further illustrate the prevalence of this scenario, I'd like to 
tell you about the effort of a non-government organization in one Asian 
community. The NGO began a program to prevent human trafficking by 
taking Polaroid photographs of each man who comes to a particular 
community to take a bride. These photos are then used to identify men 
who return to the community for brides multiple times, revealing some 
men to be traffickers who have no interest in real marriages to the 
women they claim to be picking up as brides.
    Other villains in this trade, however, use more organized 
mechanisms for deceiving women with offers of marriage. We believe 
marriage brokers--legal brokers who, for a fee, introduce prospective 
brides to wealthier foreign men--are used to facilitate trafficking in 
persons. Documenting this trend, however, is not easy.
    NGOs and other sources provide anecdotal evidence of this 
connection. Recent reports reveal trafficking of women from Vietnam to 
Taiwan in which many Vietnamese women are married legally to Taiwanese 
men whom they do not know until they are transported to Taiwan. In 
these cases, marriage brokers appear to be used--advertising and 
recruiting women seeking a foreign marriage as a means to improve their 
lives, only to be forced into sexual servitude in brothels in Taiwan.
    While the examples presented here deal with Asia, they are stories 
repeated around the world. It is important to note that this is a 
worldwide phenomenon that likely touches many countries and every 
continent.
    The potential for similar trafficking of foreign women to the 
United States using ostensibly legal and legitimate marriage brokers is 
real and serious. I applaud your efforts, Mr. Chairman, Senator 
Cantwell's efforts, and the actions of others to tighten oversight of 
marriage brokers operating in the United States in order to prevent the 
abuse of vulnerable women and children.
    I am now happy to take your questions.

    Senator Brownback. Thank you, Director Miller, and thank 
you for your comments on this.
    I have been around this debate now from the beginning of 
it. The late Senator Wellstone and I worked and pulled and 
pushed on this together. I appreciate your maturing the 
information because, at first, we did not know the nature of 
what all we were really dealing with. We just kept running into 
it anecdotally and then some information was coming forward, 
but we were not really sure about it. Now as this is coming in 
more sharp relief, we can get a much better picture of the size 
and scale of what all we are dealing with, and it is profound. 
And the different ways it is done and conducted I think is 
important for us to be able to get that out and to address 
those various avenues, whether it is through some sort of false 
marriage proposals or mail order bride type proposals. I think 
that is important to do.
    Paul and I both looked at this and said this is one of the 
dark clouds of the globalization, where you get in a world that 
opens up and people can travel more freely and the fall of the 
wall and communism and people are able to move. But this has 
been one of the dark sides of it, and we really have to 
continue to be real vigilant. And you have done a great job of 
doing that.
    Thanks for being here with us today.
    Mr. Miller. Thank you, Mr. Chairman.
    Senator Brownback. Our third panel is a panel of experts on 
this topic. Ms. Michele A. Clark, co-director of the Protection 
Project of the Foreign Policy Institute for Johns Hopkins 
University, a person who knows this topic very well on 
trafficking: Dr. Donna Hughes, professor, Women's Studies 
Program, University of Rhode Island; and Ms. Suzanne Jackson, 
associate professor of Clinical Law at George Washington 
University Law School here in Washington, DC.
    Ladies, your full statements will be placed into the 
record, so you are free to summarize the points that you would 
like to make. I would like, if you could, to stay around 5 
minutes so we could have some time for questioning afterwards. 
Unfortunately, because of time constraints, we need to get this 
hearing done in an hour.
    So, Ms. Clark, thank you very much for being with us. I 
look forward to your presentation.

STATEMENT OF MICHELE A. CLARK, CO-DIRECTOR, PROTECTION PROJECT 
   OF THE FOREIGN POLICY INSTITUTE, JOHNS HOPKINS UNIVERSITY

    Ms. Clark. It is my pleasure, Mr. Chairman. I thank you 
very much for the opportunity to be here today and would like 
to begin by thanking you and acknowledging your tremendous 
contribution in the war against modern-day slavery. You have 
been a dear friend of many of ours in this room and in other 
areas, and we thank you for your continued commitment.
    I would also like to acknowledge the role of other 
government agencies in this, our friend John Miller at the 
trafficking office and his excellent staff, as well as 
extremely dedicated people at the Department of Labor, HHS, 
United States Agency for International Development, and our 
Department of Justice, all whose efforts are contributing on a 
daily basis to eradicating trafficking.
    I also have to acknowledge that without good research 
assistants, I could not do my job. I have a wonderful 
researcher named Anna Koppel. I would like to give her credit 
for her tremendous work in helping us.
    We have heard already from Senator Cantwell and from Mr. 
Miller the story of abuse that takes place in this industry. We 
have heard of the case of Mrs. King. We have heard of the 
murder committed by Mr. Blackwell. We know the story of Alla 
Barney, a 26-year-old Ukrainian mail order bride who was 
stabbed to death by her own husband, Lester Barney, 58, after 
she obtained a restraining order against him and temporary 
custody of their son on allegations of abuse.
    I could continue the stories, and I am sure we will hear 
many more, but what stymies me, Senator, as I listen to this, 
is how do we get to this point. What has created such a monster 
that an industry, mail order brides, which has a relatively 
long history, certainly in American social culture and history, 
and the Internet, which is destined to provide us with some 
good and make our lives easier, have contributed to the 
creation of the contemporary Hydra. It seems that every time we 
try to knock off one head, another evil head emerges to reveal 
how evil this practice particularly is. So I would like in my 
testimony to talk about this a little bit, why this is 
happening and where the particular points of vulnerability are.
    In countries around the world, we have seen how economic 
and social collapse, civil war, and natural disasters have been 
used as vehicles to deceive, entrap, and enslave vulnerable 
women and children into lives of cruel exploitation. 
Traffickers capitalize on desperation and need, as do the mail 
order bride industries. They also exploit normal desires, and 
this is important to realize. They exploit normal desires for a 
better life, for hope, for the fulfillment of dreams. Many 
women who enter into a contract with an international 
matchmaking organization, especially in the booming former 
Soviet Union industry, are women with educations, but what they 
see is an opportunity for something that perhaps is more 
resembling a Western relationship, and when faced with the high 
rates of domestic violence and abuse on their own home front, 
they find this rather appealing. In addition, they are rather 
lavishly and romantically wooed. Our colleagues at the Taheri 
Justice Center have done some good research on this very 
matter. So it is not surprising that the industry of marriage 
should become a vehicle for exploitation, and nor should it be 
surprising that the Internet, because of its immediacy, because 
of promises of anonymity and lack of accountability, should 
become the vehicle of choice.
    Now, at the earliest inception, matchmaking institutions, 
even the picture bride industry, included the involvement of 
parties that knew the groom and/or the bride personally. So one 
other answer to the question of why women enter into these 
relationships is that in many countries the idea of the 
matchmaker of song and fame is actually an acceptable practice. 
Usually, however, this matchmaker was someone known to the 
women, known to the husbands, known to the families, and was a 
common denominator. Now the ``matchmaker, matchmaker, make me a 
match'' has been replaced by an impersonal, anonymous, and 
profit-seeking Web-based mechanism.
    While some matchmaking organizations take a personal 
approach to their business, the vast majority of mail order 
bride matches now happen through the mediation of Internet-
based matchmaking organizations where connections occur in 
bulk, catalogs contain hundreds or thousands of profiles of 
available brides, and where matchmakers rarely have personal 
clients.
    Here is an interesting point. With the spread of the 
Internet, anyone with a Web connection can now run a 
matchmaking business. The industry has ballooned greatly in 
recent years and has become very commercial. Many on-line mail 
order bride Web sites have taken a pure merchandising approach 
to their matchmaking, one with which any of us who go onto a 
catalog, a book site are familiar with. Just as we find buttons 
that say ``browse,'' ``select,'' ``proceed to checkout,'' these 
same setups are visible on matchmaking organizations.
    In the written testimony provided to the committee, as well 
on the table, we have provided an illustration of what one such 
Web site, Alena Russian Bride Marriage Agency, looks like. You 
have a shopping cart. Your order list. An instruction to 
``preview your order list with photos.'' Another icon tells you 
to ``proceed to checkout.'' Underneath this are the words, 
``Search our catalog to find your future Russian wife. 100 
percent satisfaction guaranty or money back. No questions.'' 
With the reduction of women to such a commodity very little 
different from a sweater, a sweatshirt, or a car part that I 
would buy, it is no wonder that the attitude that continues in 
a relationship continues to be one of ownership.
    Just before I close, let me read you two quotes. One is 
from a Filipina woman who ended up in a relationship with a man 
through a site called Intimate Submissives. This man said: ``I 
need to find myself a nice submissive young lady who wants and 
needs to have me control her, teaching a young woman to submit 
fully to my wishes. If my wife does not obey me, I am perfectly 
willing to punish her in whatever way I think is my right.'' 
And because satisfaction is guaranteed, this gentleman feels he 
has the license to operate in such a way.
    In a less gruesome but still telling quote, a young 
American potential groom states about women in Ukraine: ``The 
girls here, their values and ethics are like American girls 
back in the 1950s. They are willing to put their family first, 
their man first, instead of themselves.''
    And to sum it up, an illuminating commentary quoted on A 
Foreign Affair, a Web site for citing Maxim Magazine, which 
says why the industry beats the real world. ``Unless you work 
for the United Nations, your odds of being introduced to this 
many foreign women are a zillion to one. And with a round-trip 
ticket to Moscow running some $1,500, shelling out $10 for one 
woman's address is a hell of a lot more cost-efficient. Bonus: 
fewer tedious discussions about the `relationship' when your 
fiancee's vocabulary is limited to yes, sex, and green card.''
    Mr. Chairman, thank you for your consideration, and I look 
forward to answering any questions you might have.
    [The prepared statement of Ms. Clark follows:]

                 Prepared Statement of Michele A. Clark

                  MAIL-ORDER BRIDES: EXPLOITED DREAMS

    Mr. Chairman, Members of the Committee:
    It is an honor to be here before you today. My name is Michele 
Clark, and I am the codirector of the Protection Project, a human 
rights research institute located at the Johns Hopkins University 
School of Advanced International Studies. For the past seven years, we 
have focused on documenting and analyzing the complex dimensions of 
human trafficking both in the United States and in countries around the 
world. We have worked with Members of Congress, U.S. Government 
agencies and American NGOs, as well as representatives of foreign 
governments and NGOs to develop sound policy and practice in the war 
against trafficking and to conduct training, here and overseas, on the 
provision of services to victims of trafficking, drafting anti-
trafficking legislation, and identifying victims of trafficking.
    Mr. Brownback, I would like to acknowledge your championship of 
this issue and your continuing, courageous efforts to end modern day 
slavery. On behalf of victims of trafficking in Central and South 
America, in the Middle East, in Eastern and Western Europe, in Africa 
and Southeast Asia, I would like to thank you for your commitment to 
the freedom of these men and women, too many of them children. As 
evidenced by the most recent Trafficking in Persons Report, documenting 
the status of human trafficking in 140 countries around the world, 
released in June by Mr. Miller and his extremely capable staff at the 
Trafficking in Persons Office, we have seen that significant progress 
has been made, and that the efforts of the U.S. Government agencies 
involved in this battle, including the Departments of Justice, Health 
and Human Services, Labor, State and USAID are bearing fruit. We also 
recognize that we still have a long way to go.
    Those of us who have been involved in the war against trafficking 
for a number of years have learned many important lessons which assist 
us in honing our own efforts to end modern day slavery. One lesson in 
particular has been the creativity and ingenuity of traffickers to 
adapt to different social, economic and political trends. Allow me to 
provide you with a few examples:
    When Soviet Jews began leaving Russia en masse for Israel in the 
early 1990s, traffickers rightly assumed that the entrance into the 
country of a few thousand illegal women for the purposes of being 
forced into the brothels of Tel Aviv, Jerusalem and Haifa would pass 
unnoticed, given the large numbers of legal immigrants and the limited 
resources to process all newcomers. They were right, and the trade in 
women remained fairly covert until the mid nineties.
    When the numbers of Chinese workers seeking to obtain illegal entry 
into the United States began to grow, smugglers started charging 
exorbitant fees for passage to California or New York. Instead of a 
family being able to scrape together the full fare, those seeking entry 
would pay a portion of their transportation up front and agree to pay 
the balance upon their arrival in the United States. In order to do 
this, they signed contracts which bound them to their employers until 
the debt was paid, turning a smuggling operation into a crime of human 
trafficking.
    In countries around the world, we see how economic and social 
collapse, civil war and natural disasters have been used as vehicles to 
deceive, entrap and enslave vulnerable women and children into lives of 
cruel exploitation. Traffickers capitalize on desperation and need; 
they also exploit normal desires for a better life, for hope, for the 
fulfillment of dreams.
    So it is not surprising that the industry of marriage should become 
a vehicle for exploitation. Nor is it surprising that the Internet, 
because of its immediacy, promises of anonymity and lack of 
accountability, should become the vehicle of choice for this 
exploitation to take place.

Overview of the Industry
    The practice of pre-arranged marriages, or mail-order brides, 
conducted through a third party, is not new to the United States, and 
can be documented as far back as the Revolutionary War. The practice 
was further developed during the California Gold Rush and the pioneer 
move west when pictures of available women were distributed to men in 
isolated regions. At times the mail-order bride industry filled deeply 
human needs. Following the Armenian Genocide, matchmaking organizations 
facilitated marriages of ``picture brides,'' or women displaced as a 
result of the Genocide, enabling them to make connections with other 
Armenians in different parts of the world, notably Canada. In this 
instance, the service enabled members of a tragically dispersed 
community to find one another and reestablish ties with members of 
their own ethnic group.
    In the early nineteen nineties, the Internet replaced the picture 
catalogues and began posting photographs as well as profiles of young 
women interested in finding a foreign spouse, facilitating 
communication and providing men with access to a larger pool of 
applicants. Previously dominated by women from Southeast Asia 
(especially the Philippines), the rise of the Internet, coinciding with 
the fall of the former Soviet Union and the subsequent economic 
collapse which plunged many families into desperate economic 
conditions, contributed to the meteoric rise of the Russian mail-order 
bride industry.

How Large Is the Industry Today?
    The simplest Google search for ``mail-order brides'' yields a 
minimum of 500,000 Web page entries with names such as ``The Natasha 
Club,'' ``Brides4U,'' ``Plant-Love,'' ``Goodwife,'' and ``LoveMe.'' Out 
of the first twenty entries on the Google search, only one entry deals 
with the possibility of abuse and negative outcomes of matches arranged 
on line. The majority of the entries are dedicated to Eastern European, 
Latina and Asian women profiled as mail-order brides looking for 
husbands. On an average Google page, firms offering Russian brides 
comprise about 30 percent of all advertisements.
    Several Sites advertise themselves as warehouses. The ``Mail-Order 
Bride Warehouse,'' available at www.goodwife.com, provides a good 
indicator of the popularity of the international match-making industry, 
which boasts 12,804,307 hits since August 31, 1997.
    As of June 2004, we were able to find over 400 Web sites based in 
the U.S. offering international marriage broker services; this number 
does not include the number of firms operating overseas. It is 
estimated that outside of the U.S., there are over 500 Web sites 
operating in the former Soviet Union alone, with more than 62,000 
Russian and 30,000 Ukrainian women listed in their rosters.
    The mail-order bride industry is largely unregulated. Web-based 
companies appear and disappear everyday. The international on-line 
matchmaking business appears to be thriving largely because of 
increased Internet use worldwide, low overhead and start-up costs, and 
the seemingly endless supply of eligible foreign women. Today, any man 
with Internet access, an electronic photo (even ten years old) and a 
credit card number can shop.

Who Are the Brides and Where Do They Come From?
    In 2002, 18,621 former fiancees were adjusted to permanent 
residence status in the United States. Out of that number, 4,739 were 
from Europe (1,476 from Russia and 861 from Ukraine); 9,358 were from 
Asia (1,361 from China; 2,392 from the Philippines, 2,418 from 
Vietnam); and 966 were from South America (346 from Brazil, 301 from 
Colombia).\1\
    The mail-order bride trade follows traditional trafficking 
patterns, with brides coming from the former Soviet Union countries, 
Asia and Latin America, and the clients coming from the West (including 
Europe and North America). The nationalities most represented in the 
mail-order bride industry are from Eastern Europe (with a strong 
emphasis on Russia and Ukraine), Asia (specifically the Philippines, 
China, Vietnam and Thailand), and Latin America (most prominently 
represented by Colombia, Brazil and Costa Rica).
    Clients are from the U.S., Canada, Europe (notably Germany, Sweden 
and Norway), and Japan.

A Legitimate Industry Goes Sour--From Legitimate Practice to 
        Exploitation and Abuse
    While the mail-order bride industry is not in itself an 
illegitimate business, it is characterized by several important 
features which render it susceptible to exploitative practices. Without 
appropriate safeguard regulations, the industry will continue to be 
ripe for exploitation by unscrupulous business owners. Because it is a 
commercial enterprise, it favors the interests of the paying clients, 
usually men, over the interests of the brides.
Commercialization of the Mail-Order Bride Industry
    At their earliest inception, most matchmaking institutions, even 
the picture bride industry, included the involvement of parties that 
knew the groom and/or the bride personally. The ``matchmaker'' of song 
and movies was a regular fixture in many cultures. The mail-order bride 
industry as it has developed today is a largely impersonal, multi-
million dollar business where a profit-based corporation now fills the 
role of the middleman. While some matchmaking organizations still take 
a personal approach to their business, the vast majority of mail-order 
bride matches now take place through the mediation of Internet-based 
matchmaking organizations, where connections occur in bulk, catalogs 
contain hundreds or thousands of profiles of available brides, and 
where matchmakers rarely have personal contact with their clients. With 
the spread of the Internet, anyone with a Web connection is now able to 
run a matchmaking business. The industry has thus ballooned greatly in 
recent years, and has become more commercial. Many online mail-order 
bride Web sites have taken a Web-based merchandising approach to their 
matchmaking, one in which the male clients are taken through a process 
of ``Browse, Select, Proceed to Checkout.'' Some organizations, such as 
Alena Russian Brides Marriage Agency, even use computer icons similar 
to those found on Internet catalogue sites, complete with pictures of 
shopping carts and money back guarantees:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    A Foreign Affair, at the www.loveme.com Web site, reprints an 
informational piece with permission of Maxim magazine, which provides 
another type of illustrative description of the contemporary mail-order 
bride industry: ``It's a snap to narrow the field. Though your typical 
guy won't admit it, 20,000 women are more than he can handle. Luckily, 
AFA [A Foreign Affair] has made searching its voluminous database as 
easy as ordering a pizza.\3\ As the mail-order bride industry becomes 
an increasingly commercial affair, this leads the clients to view 
marriage with a foreign woman as a commercial transaction, one 
characterized by a ``satisfaction guaranteed, or your money back 
approach.'' Further, if the client is not satisfied with the provided 
product, he can always ``return and exchange'' his bride, which some 
men have done with disastrous consequences. In the famous Anastasia 
King case, Indle G. King Jr. was convicted in September 2002 for the 
first-degree murder of his second mail-order bride. According to King's 
testimony, he had not been satisfied with his first ``product.'' \4\ He 
then righted that wrong by taking revenge on his second try.
    Money-back guarantees usually mean that, if a client does not find 
a satisfactory match within a specified time, he is entitled to a 
refund of his money. Within this framework, matchmaking organizations 
have little incentive to seek out information from their male clients 
as to their potentially negative personal histories including criminal 
records and marital history. In the interest of profit, what matters is 
the quantity of the matches being made by the matchmaking organization 
rather than the quality of the matches made.

Commercial Stereotyping in the Mail-Order Bride Industry
    Matchmaking organizations build their business by taking advantage 
of and marketing cultural stereotypes. The danger with these 
stereotypes stems from their inherent flaws in describing reality and 
the possible consequences of such misrepresentations. In relationships 
like those of the mail-order bride variety, where partners know very 
little about each other, stereotypes can play a destructive role, 
potentially leading to abuse. Many matchmaking Web sites advertise 
their mail-order brides (implicitly, or in some cases, explicitly) as 
submissive, docile, faithful and loving domesticated wives who are 
looking to build a traditional, old fashioned home in which they will 
cater to their man. It is not unlikely that the men who choose to 
pursue the search for a wife through the mail-order bride path might be 
looking for just such a woman. It is also likely that a man who is 
seeking out a submissive woman is not seeking an equal partnership, but 
rather a relationship of dominance and control.\5\ It is further likely 
that a man who marries a bride from a mail-order match will expect her 
to fit this stereotype. However, stereotypes are unlikely to reflect 
the reality of the personalities of even a minority of the women which 
they advertise. It then becomes likely that if a wife turns out not to 
``live up'' to the advertised standard, the husband, who was seeking 
control in a relationship, might turn to abuse in order to force the 
wife to live up to that standard. While little research has been done 
to investigate this issue, the little information available does point 
to the fact that men seeking mail-order brides might indeed be 
searching for the stereotyped women. Even more poignantly, the 
businesses of mail-order brides would not be marketing a stereotype for 
which there is little demand. A Filipina quotes a letter which she has 
received from an interested man who found her photo through the 
``Intimate Submissives Web site'': ``. . . I need to find myself a nice 
submissive young lady who wants and needs to have me control . . . 
teaching a young woman to submit fully to my wishes . . . If my wife 
does not obey me, I am perfectly willing to punish her in whatever way 
I think is right . . .'' \6\ In a less gruesome, but still telling 
quote, a young American potential groom states about women in Ukraine 
``The girls here, their values and ethics are like American girls back 
in the 195Os, they're willing to put their family first, to put their 
man first instead of themselves.'' \7\ And to sum it up, an 
illuminating commentary quoted on A Foreign Affair's Web site from 
Maxim Magazine: ``Why it [Mail-order Bride Industry] beats the real 
world: `Unless you work for the United Nations, your odds of being 
introduced to this many foreign women are a zillion to one. And with a 
round-trip ticket to Moscow running some $1,500, shelling out $10 for 
one woman's address is a hell of a lot more cost-efficient. Bonus: 
fewer tedious discussions about the ``relationship'' when your 
fiancee's vocabulary is limited to yes, sex, and green card.' '' \8\

Inherent Bias Against the Mail-Order Bride: Exploitation of Conditions 
        of Vulnerability
    As the mail-order bride industry is first and foremost a business, 
the customer's satisfaction is logically the central concern. Because 
the paying clients are male, the bride is reduced to the condition of 
commodity. Protective mechanisms exist to safeguard the potential 
husbands, but not the potential brides. The mail-order brides face 
conditions of vulnerability prior to marriage with their potential 
grooms, during the matchmaking process, and after the marriage takes 
place.

            Informational Vulnerability
    A significant imbalance leading to a condition of vulnerability 
concerns the information about partners available to prospective brides 
and grooms. Potential brides generally receive information which has 
been volunteered by the potential husband himself. While matchmaking 
organizations have incentive to provide their paying male clients with 
``quality'' brides, the incentive is much smaller for providing the 
prospective brides with similar information about their possible 
husbands, especially considering the seemingly unrelenting supply of 
available brides. Matchmaking organizations commonly do not screen 
their male clients for past criminal records or records of domestic 
violence, abuse or restraining orders. According to Bob Burrows, the 
President of Cherry Blossoms, one of the longest-running and largest 
mail-order bride agencies in the United States, a ``serial murderer 
could write to [Cherry Blossoms] and there's no screening done.'' \9\ 
While background checks on the brides are sometimes provided to the 
potential husbands to minimize the chances of the foreign woman 
``swindling'' the male clients, the same background checks are not done 
about the potential husbands to minimize chances of abuse against the 
brides. The industry therefore almost en masse ignores the potential 
repercussions of these marriages on the women, while focusing squarely 
on the potential repercussions of the marriages on the men, leaving the 
brides to be in a more vulnerable position than the grooms.

            Economic Vulnerability
    Most matchmaking organizations make their profits from the 
arrangement of marriages between two worlds--the first and the third. 
Similar to the trafficking in persons industry, husbands tend to come 
from wealthy, stable economies, while the brides originate from 
economically unstable or vulnerable environments. Additionally, the 
mail-order brides are in conditions of economic vulnerability before 
and after their marriage to their first-world husbands. Most women 
search for a husband abroad out of economic need, as demonstrated by 
the one-way direction of the marriages--no Web sites exist advertising 
American or German women as mail-order brides in El Salvador or the 
Ukraine, for example. However, when these brides find themselves 
married in the first world, they are dependent economically on their 
husbands especially in the early days of their lives in a new country. 
They thus continue to face economic vulnerability and dependency until 
the time comes when they are able to support themselves financially.

            Cultural Vulnerability
    An additional bias stems from the fact that the brides enter a 
foreign country, a foreign culture, and a foreign community, in which 
few of them have any networks of support other than the husband--the 
matchmaking agencies tend not to stay involved in the future of a 
marriage. The husband, who has brought a wife into his natural 
environment, is by default in his comfort zone, while the wife is 
vulnerable to the intricacies of a culture she is not familiar with, 
often without the knowledge of the language. She is again dependent in 
many ways on the husband until she begins to navigate the culture 
herself.

            Legal Vulnerability
    Additionally, because the brides are usually from a foreign 
country, they are in a legally vulnerable status, dependent on their 
newly found husbands for continued legal presence in their new homes. 
In the United States, a woman arriving on a fiancee visa is to be 
married to her proposed fiancee within 90 days of entry (there is no 
legal way to extend this limit), or she is to face deportation. Upon 
marriage, she is granted a conditional resident status, which is again 
dependent on her husband, as applications are filed jointly. Again, 
before the expiration of the continued status, the wife and the husband 
must appear in court together to request removal of conditionality. 
Divorce cannot be an option for two years, otherwise the wife loses her 
immigrant status. The bride is therefore continuously placed at the 
mercy of her husband and lives under the constant threat of possible 
deportation.\10\ While recent laws have been enacted to allow immigrant 
women who have suffered abuse at the hands of their American husbands 
to file alone for permanent residence, few women are informed of this 
law. In 1996 matchmaking organizations were required by law to disclose 
information about immigration laws to its brides or pay $20,000 fines, 
but it is not clear how well-enforced this law has been. The legal bias 
is therefore also in favor of the men, and not the brides.

Lack of Industry Regulation
    The low start-up costs and the ease of creating a matchmaking 
organization online create conditions that are ripe for abusive 
practices. Few standards exist for the operation of these agencies 
other than the U.S. imposed fine for failure to disclose immigration 
information. For example, in a rare effort of the mail-order bride 
industry to self-regulate, matchmaking agencies which market brides 
through catalogs as well as over the Internet, claim that they refrain 
from sending catalogs to prison addresses. However, some journalists 
have found references to access to catalogs within the prison 
system.\11\ The lack of regulation of the industry leaves it open to a 
wide array of potential criminal violations, the most important being 
the trafficking in persons for sex and labor under the guise of mail-
order marriages, the ease of entry of organized crime into such 
business, and the recruitment of minors as potential mail-order brides, 
as well as the organization of sex tours which could involve minors 
under the guise of ``romance tours.'' Nongovernmental organizations 
have linked matchmaking organizations based in Russia with Russian 
organized crime, and romance tours have been observed to serve as 
fronts for high-level prostitution rings.\12\ Marie Claire Belleau, in 
``Mail-order Brides in a Global World,'' quotes an interview with a 
Canadian Social Worker in a shelter for immigrant women who have 
experienced spousal abuse, who states that ``In the worst case 
scenario, the First World Husband assumes the role of a pimp, who takes 
away the bride's passport and forces her into prostitution. At one 
extreme, the pimp may go so far as to undertake serial sponsorships of 
immigrant women to supply new recruits for prostitution rings. If this 
is the case, he will hold the bride in debt bondage because he paid for 
her to immigrate to North America, and then force her to participate in 
slavery-like practices in order to obtain her freedom.'' Without 
regulation, Web-based matchmaking organizations can easily recruit 
women into prostitution rings. Some may charge potential brides 
exorbitant fees for matching them up with a husband, and then place 
them in debt bondage. The Council of Europe has recently pointed to the 
lack of regulation of the mail-order bride industry in its April 2004 
Report on ``Domestic Slavery: Servitude, Au Pairs and Mail-order 
Brides,'' and called for some type of regulation. The Council of Europe 
stated that ``it is in the interest of the more serious agencies to 
accept some type of regulation . . . the persons responsible for a site 
should be clearly identifiable, users of the site should be forced to 
identify themselves, marriages should be kept track of, and an 
emergency contact number should be provided for when things go wrong. 
Agencies should also do a background check on the prospective 
bridegroom to check for a criminal record (e.g. domestic violence or 
procurement) when couples come close to marriage.'' Further, the 
Council of Europe recommended considering including ``mail-order 
brides'' in the scope of its draft convention against trafficking in 
human beings, and the development of an accreditation system for 
matchmaking agencies which would commit them to adherence to a number 
of agreed upon minimum standards which would serve to protect the 
potential mail-order brides.
    Regulation is urgently needed to eliminate the existing biases that 
favor the male clients and to counter with protective regulation the 
conditions of vulnerability mail-order brides find themselves in within 
the contemporary context of the mail-order bride industry.

Documentation of Abuse
    Physical Abuse: Ngan, a twenty-one year old Filipina came to the 
United States having married a U.S. citizen through an international 
matchmaking organzation. She endured repeated physical assaults at the 
hands of her husband who had decided that he had not receive the 
picture bride that he had ordered. Frightened in the beginning, Ngan 
did not report what had happened to her. As the violence increased, 
Ngan's neighbors rescued her, and from the hospital she was placed in a 
shelter for battered Asian women.\14\
    Physical Abuse, Forced Motherhood and Threats of Deportation: In a 
story of forced motherhood, Raco, a twenty-four year old Filipina, 
married a U.S. citizen, who had corresponded with her romantically for 
ten years. Soon after her marriage, Raco began to be severely beaten by 
her husband. Because she did not want to bear children immediately, the 
assaults against her became more severe. When Raco did become pregnant, 
she was threatened by her husband who said that he would not sponsor 
her permanent residence if she did not carry the child to term. She 
finally fled to a shelter, after the beatings continued to intensify 
even when she decided to keep the child.\15\
    Physical Abuse, Threats of Deportation, Restriction of Movement and 
Murder: In the most famous mail order bride abuse case, Anastasia King 
from Kyrgyzstan married Ingle King, Jr., who strangled her to death in 
September 2000. It has been reported that in her diaries, Anastasia 
wrote that she was sexually and physically assaulted by King, that he 
withheld her college tuition, restricted her freedom of movement, and 
threatened her with deportation and death.\16\
    Physical Abuse and Murder: Alla Barney, a twenty-six year old 
Ukrainian mail order bride was stabbed to death by her husband, Lester 
S. ``Stuart'' Barney, 58, after she had obtained a restraining order 
against him and temporary custody of their son on allegations of abuse. 
Alla had met Barney through an online mail order bride service.\17\
    Physical Abuse and Murder: After a year long courtship, Susana 
Remerata, a Filipina, married Timothy Blackwell, who had found her on 
the Asian Encounters Web site. After their wedding in the Philippines, 
Blackwell became abusive and attempted to choke Susana on several 
occasions. Susana had filed for divorce, but before the proceedings 
were set to begin, Blackwell shot and murdered Susana and her unborn 
child in a Seattle Courthouse.\18\
    Sexual Abuse of a Child, Forced Labor: Norman H. McDonald pled 
guilty to sexually abusing his Ukrainian mail order wife's daughter 
since the age of 3. McDonald had also forced his wife to hold 
several.jobs.\19\
    Physical Abuse, Failure to Provide Immigration Information: 
Nataliya Fox, a Russian who came to the United States on a K-1 visa, 
has recently filed a lawsuit against Encounters International, a long-
standing matchmaking service in Maryland. Nataliya was originally set 
to marry a Virginian whom she had met through Encounters, but upon the 
failure of that marriage, Encounters set her up with another match, 
James Fox. Nataliya and James were married within the month, however 
Nataliya was severely assaulted by James while she was breastfeeding 
their newborn daughter. A few months prior to that incident, Nataliya 
had informed Encounters that her husband had hit her. Nataliya's 
lawsuit charges Encounters with failing to have run a background check 
on her husband's previous history (which includes an accusation from a 
former fiancee of his attempt to strangle her to death) and with 
failing to provide her with the legally required immigration 
information about her ability to self-petition for permanent residence 
as a battered immigrant woman. James Fox is currently married to 
another mail-order bride.\20\
    Mr. Chairman, members of the committee, on behalf of these women, 
and the thousands more whose stories we never hear about but who endure 
lives of horrible abuse, we urge you to take aggressive action to 
protect these women who, in many cases, have done nothing more than 
tried to follow their dreams.
    Thank you for your time.

                                 NOTES

    \1\ USCIS 2002 Yearbook of Immigration Statistics, accessed July 9, 
2004 at http://uscis.gov/graphics/shared/aboutus/statistics/IMM02yrbk/
IMM2002.pdf.
    \2\ Picture and quote from Alena Russian Bride Marriage Agency, 
accessed July 9, 2004 at http://www.alena-marriage-agency.com/.
    \3\ A Foreign Affair, accessed July 10, 2004 at, http://
www.loveme.com/information/maxim.shtml.
    \4\ David Fisher, ``Indle King Found Guilty of Killing Mail-Order 
Bride,'' Seattle Post-Intelligence Reporter, February 22,2002.
    \5\ Robert J. Scholes, PhD, ``The `Mail-Order Bride' Industry and 
Its Impact on U.S. Immigration,'' accessed July 9, 2004 at http://
uscis.gov/graphics/aboutus/repsstudies/Mobappa.htm, quoting Glodava, 
Mila and Richard Onizuka, ``Mail Order Brides: Women for Sale,'' 1994.
    \6\ Quote from Media Rights, synopsis of ``Say I Do `Mail-Order 
Brides,' '' accessed July 10, 2004 at http://www.mediarights.org/
search/fil_detailphp?ffl_id=06229.
    \7\ Sara Rainsford, ``Romance Tourists' Head East,'' BBC News, July 
9, 2002.
    \8\ A Foreign Affair, accessed July 10, 2004 at, http://
www.loveme.com/information/maxim.shtm1.
    \9\ Quote from Vanessa B.M. Vergara, ``Abusive Mail-Order Marriage 
and the Thirteenth Amendment,'' Northwestern University Law Review, 
Summer 2000.
    \10\ Vanessa B.M. Vergara, ``Abusive Mail-Order Marriage and the 
Thirteenth Amendment,'' Northwestern University Law Review, Summer 
2000.
    \11\ Lena H. Sun, ``The Search for Miss Right Takes a Turn Toward 
Russia,'' The Washington Post, March 8, 1998.
    \12\ See, for example, ``Crime and Servitude: An Expose of the 
Traffic in Women for Prostitution from the Newly Independent States,'' 
Global Survival Network, 1997.
    \13\ Marie-Claire Belleau, ``Mail-Order Brides in a Global World,'' 
Albany Law Review, 2003.
    \14\ Michelle J. Anderson, ``A License to Abuse: The Impact of 
Conditional Status on Female Immigrants,'' From the Web site, Mail 
Order Brides and the Abuse of Immigrant Women, synopsis of by Anderson, 
Michelle J., accessed on July 11, 2004 at http://nostatusquo.com/ACLU/
Anderson/brides/pgl.html.
    \15\ Michelle J. Anderson, ``A License to Abuse: The Impact of 
Conditional Status on Female Immigrants,'' from the Web site, Mail 
Order Brides and the Abuse of Immigrant Women, synopsis of by Anderson, 
Michelle J., accessed on July 11, 2004 at http://nostatusguo.com/ACLU/
Anderson/brides/pgl.html.
    \16\ Mae Bunagan, ``Cash on Delivery,'' accessed on July 12, 2004 
at http://www.digitas.Harvard.edu/-perspy/issues/2002/nov/mae.html.
    \17\ Troy Graham and Joseph A. Gambardello, ``Police say Husband 
Killed His `Mail-Order' Wife,'' The Inquirer, October 1, 2003. Accessed 
on July 12, 2004 at http://www.philly.com/mld/inquirer/news/local/
6903067.htm?template=contentMo.
    \18\ Mae Bunagan, ``Cash on Delivery,'' accessed on July 12, 2004 
at http://www.digitas.Harvard.edu/-perspy/issues/2002/nov/mae.html.
    \19\ ``Man Pleads guilty to Sex Abuse of Mail-Order Bride's 
Daughter,'' The Associated Press State and Local Wire, February 26, 
2004.
    \20\ Nadya Labi, ``The Business of Mail-Order Marriage,'' Legal 
Affair, accessed on July 12, 2004 at http://www.legalaffairs.org/
issues/January-February-2004/story_labi_janfeb04.html.

    Senator Brownback. Well, it is a commodification, is it 
not? And it is a reduction of the human person to, as you say, 
an ownership type relationship and a degrading of the 
institution of marriage as well. I look forward to talking more 
about this.
    Dr. Hughes.

STATEMENT OF DONNA M. HUGHES, PH.D., PROFESSOR, WOMEN'S STUDIES 
              PROGRAM, UNIVERSITY OF RHODE ISLAND

    Dr. Hughes. Good afternoon, Senator Brownback. It is very 
good to be here. Thank you for your leadership on these issues.
    Each year thousands of women marry men they have met 
through marriage agencies. Driven by poverty, unemployment, and 
media images of Western lifestyles, women accept risky offers 
of marriage in hope of finding a better life. Although some 
women may find the love and opportunities they seek, many 
become victims of violence, sexual exploitation, and sex 
trafficking.
    From examining the Web sites of marriage agencies, one can 
see that the women are marketed using sexual, racial, and 
ethnic stereotypes. The Web sites often include sexualized and 
semi-nude pictures of the women. The descriptions of the women 
claim that they are dedicated to a subservient role, solely 
oriented to pleasing men. The women are clearly being marketed 
to men who have been failures at establishing relationships 
with American women.
    From my contacts and what we have heard earlier, we know 
that there are many documented cases of domestic violence 
involving women who have come here through marriage agencies, 
so I will not go into detail on that.
    One of the things that I have documented through my 
research is that you can find underage girls and children on 
these marriage sites. One marriage agency offered women from 
Asia and Eastern Europe, and I have found blatant and subtle 
marketing of children for sexual purposes. One mail order bride 
agency from the Philippines had 19 girls aged 17 or younger. 
Several of the marriage agencies offering women from Russia, 
Ukraine, and Moldova have underage girls, ranging in age from 
10 to 16 years of age, and listed them as looking for 
correspondents and as being future wives for men abroad.
    There are also images and texts on marriage Web sites that 
have raised my suspicions that pedophiles may seek a vulnerable 
foreign wife with children as a way of having sexual access to 
children. For example, on Web sites you will see pictures of 
nude children in sort of seemingly innocent scenes like playing 
in the water in a fountain on a street, but when that is 
juxtaposed beside a mail order bride, then you can see that 
this would have interest for pedophiles.
    These agencies are also specialized in women or girls from 
extremely vulnerable populations. One marriage agency that I 
documented operates from inside a Russian government social 
service agency that provides medical and social assistance to 
families with disabled children, single parent families, and 
other vulnerable layers of the population.
    I also have documented marriage agencies offering 
introduction services and pornography of women with 
disabilities. The services are marketed to men with fetishes 
for missing limbs and congenital malformations. On the same 
agency site are photographs of orphans with disabilities, and 
the viewers are urged to adopt them. It would be very easy to 
see how predators could then get access to some very vulnerable 
women and children in this way.
    Senator Brownback. Do you have the listing of those sites 
that we could get a look at that?
    Dr. Hughes. Yes, I can give you all those details.
    Senator Brownback. Thank you.
    Dr. Hughes. In the 1990s, the Government of the Philippines 
banned the operation of marriage agencies and sex tour 
agencies. I do not know if there has ever been any 
prosecutions, but this new law did cause American operators of 
marriage agencies to move out of the Philippines. So I thought 
that was quite interesting. Although one American man continues 
to operate his marriage agency business from the United States, 
he has his own Filipina bride that he sends back in to contact 
women and recruit for his bride agency. But that is something 
for us to consider in the law. If the operation of a mail order 
bride agency is illegal in the Philippines, is it acceptable 
for a U.S. citizen to run a mail order bride agency with 
Filipino women in them? It is something to think about.
    Many of the marriage agencies are part of larger commercial 
operations that offer a number of services, some of which are 
blatantly connected to the sex industry and involve the sexual 
exploitation of women. These multiple services include tours 
for men to meet the women, escort services, which is the 
euphemism for prostitution, modeling agencies, production of 
pornography, and travel agencies. A number of the marriage 
agencies' Web sites have links to pornographic Web sites and 
prostitution services. So it is easy to see how the 
intersections of these types of services would enable the 
sexual exploitation and trafficking of women.
    It is easy to document how marriage agencies are involved 
in many forms of sexual exploitation. It is harder to prove 
involvement of these agencies in sex trafficking as the crime 
is defined by law, meaning that it is for purposes of the 
commercial exploitation and requires force, fraud, or coercion, 
although information from nongovernmental organizations working 
in these countries indicates that marriage agencies are 
involved in sex trafficking.
    In St. Petersburg, I met with NGO representatives who said 
that marriage agencies are well organized businesses and 
protected by the political-business-criminal networks there, 
and as in other cities in Russia, the same people who own 
marriage agencies also own foreign travel and employment 
agencies, some of which are known to be traffickers.
    When you think about a marriage agency, what it has is it 
has collected a pool of women, usually young, all indicated 
that they want to travel abroad or even to emigrate to go 
abroad. They tend to be single and able to move, and because of 
the information they collect, the agency now has extensive 
personal information about the women and their families and we 
know that that information is often used by traffickers then to 
coerce the women either into prostitution or staying in 
prostitution. So I think these agencies have really created a 
data base and a pool of women from which they can recruit 
likely victims.
    Since I saw the light go off, I will stop there.
    [The prepared statement of Dr. Hughes follows:]

              Prepared Statement of Donna M. Hughes, Ph.D.

                              INTRODUCTION

    Each year, thousands of women marry men they have met through 
marriage agencies. Driven by poverty, unemployment, and media images of 
Western lifestyles, women accept risky offers of marriage in hope of 
finding a better life. Although some women may find the romance and 
opportunities they seek, many become victims of violence, sexual 
exploitation, and sex trafficking.
    In the 1980s, the mail-order-bride industry was small and brokers 
had to use printed catalogues or advertisements in the back of 
magazines to reach male customers. At that time, most of the women were 
recruited from Southeast Asia, particularly the Philippines and 
Thailand. In the early 1990s, two historical developments coincided to 
turn the mail-order bride market into a profitable, global business: 
the first was the collapse of the Soviet Union with the opening up of 
the borders for people, particularly women, to migrate, and the second 
was the digital information revolution of the Internet. The marriage 
brokers quickly moved to the Internet, which enabled them to expand and 
update their catalogue offerings and reach a global market of men 
quicker, easier, and less expensively.
    Women who find partners through marriage agencies are probably at 
higher risk of becoming victims of violence and exploitation. From 
examining the Web sites of marriage agencies, one can see that the 
women are marketed using sexual, racial, and ethnic stereotypes. The 
Web sites often include sexualized and semi-nude pictures of the women. 
The descriptions of the women claim that they are dedicated to a 
subservient role, solely oriented to pleasing men. The women are 
clearly being marketed to men who have been failures at establishing 
relationships with American women. These men frequently blame their 
failed relationships on the character of American women. One agency 
said it was there to assist men in finding a ``loving and devoted'' 
woman whose ``views of relationships have not been ruined by 
unreasonable expectations.'' The advertisement on this agency's Web 
site said that these women were ``known to be pleasers and not 
competitors. They are feminine, NOT feminist.'' The following is 
another example of how Filipina women are marketed to American men:

        It is less common to find an American woman who is interested 
        in having a permanent marriage and family including a Husband. 
        One easy way to see this is to look at ANY publication 
        containing ``personals'' ads. The women want someone who looks 
        a certain way, and who has certain ``social skills'' such as 
        dancing or clever conversation, someone who is interesting and 
        exciting and seductive. Now go to my Web page 
        (www.filipina.com) and look at what the girls say they want. 
        It's all pretty simple, really. Over and over they state that 
        they are happy to settle down FOREVER with a MAN who is willing 
        to try to hold down a steady job and be a loving and 
        understanding husband and father. This will get you exactly NO 
        WHERE with an American girl!!!!!''

    From my contacts with domestic violence service providers, I have 
heard about numerous cases in which mail-order-brides ended up being 
battered, imprisoned, and sadistically sexually abused. There are 
documented cases of women being abused and/or murdered after marrying a 
man they met through a ``marriage agency.'' In a well-publicized case, 
an American man was convicted of murdering his ``mail-order-bride'' 
from Kyrgyzstan. Previously, he had another Russian ``mail-order-
bride'' before the wife he murdered. She had divorced him. The murderer 
said that the second wife would not be allowed to leave. There have 
been other cases of women who met American men through these agencies 
being seriously victimized and murdered.

                          DECEPTIVE PRACTICES

    There have been documented cases of photographs being used on 
marriage agency Web sites without the women's knowledge or permission. 
In one case, a model, whose nude pictures appeared in an American 
online catalogue claimed that a photographer, for whom she had worked, 
sold the pictures without her permission to the marriage agency, along 
with her address and phone number. Upon investigation, the owner of a 
modelling agency that specialized in pornography admitted that he sold 
nude photographs of women to the marriage agency.
             underage children on marriage agency web sites
    On marriage agency Web sites offering women from Asia and Eastern 
Europe, I found blatant and subtle marketing of children for sexual 
purposes.
    One mail-order-bride agency from the Philippines had 19 girls aged 
17 or younger. The following are descriptions of three of the youngest 
girls:

          ID # V001--Hazel; Age: 13; Height: 53" (160 cm); Weight 95 
        lb. (43 kg); Children: none; Looking for a mate in age range 
        20-35. ``I am now a freshman student at Saint Pius School. . . 
        . I like outdoors having fun. I like to read magazine which is 
        nice to me, especially to religious books. I sometime love to 
        see a movie but not so . . . I really want to have a penpal who 
        is loving, caring, honest, and family-oriented person. I am a 
        marriage minded woman.''

          ID # Y011--Eddy Mae; Age 14; Height: 52" (157 cm); Weight 98 
        lb. (45 kg); Children: none; Looking for a mate in age range 18 
        to 25; ``Currently, I'm a second year student of San Lorenzo 
        Ruiz Academy of Polomolok; . . . My hobbies are writing, 
        painting, and reading books. I love reading Valentine Romance 
        and any love story pocket books. I like watching TV Patrol and 
        Million Dollar Movies.''

          ID # 1F12--Edrilyn; Age: 15, Height: 50" (152 cm); Weight 95 
        lb. (43 kg); Children: none; Looking for a mate in age range 20 
        to 30. ``I am working in my neighbor's house as a servant. At 
        the same time I am studying at public school--as a sophomore 
        student . . . I like playing (as I am a sportsminded), dancing, 
        reading, writing. I am fond of reading magazines, especially 
        Movie Star and Teen Star. I love to watch TV shows such as Bay 
        Watch and Power Rangers, which is interesting too. I am self-
        supporting.''

    Several of the marriage agencies offering women from Russia, 
Ukraine and Moldova have underage girls listed as correspondents or 
future wives. A marriage agency in Chisinau, Moldova had a 14 year old 
girl; an agency located in Kherson, Ukraine had girls listed as being 
15 and 16 years of age; another Ukrainian agency had contact addresses 
for girls aged 10, 14, and 16. And an agency in Odessa, Ukraine had 
contact information for several underage girls (aged 10, 12, 14 and 15) 
and a boy (aged 15).
    One marriage agent offering women and girls from the Philippines 
complained on his Web site that the U.S. government will not allow his 
youngest brides on offer, who are under age 16, into the country. ``The 
service itself is not restricted by the American government, although 
they are real picky about getting your bride into the states--they 
won't give a visa to a bride under age sixteen.''
    There are imagines and texts on marriage agency Web sites that have 
raised my suspicions that paedophiles may seek a foreign wife with 
children as a way to have sexual access to children. One Web site had 
photographs of naked children from the Philippines. Although the images 
were seemingly innocent--the pictures were of naked boys playing in a 
fountain--when juxtaposed alongside mail order brides, they conveyed a 
message that these children were available as well. Also, another 
marriage agency allowed viewers to sort the available women by whether 
or not they had children.

           THE MARKETING OF EXTREMELY VULNERABLE POPULATIONS

    There are a few marriage agencies that either specialize in or 
include women or girls from especially vulnerable populations.
    One marriage agency operates from inside a Russian government 
social service agency that provides medial and social assistance to 
``families with disabled children, single-parent families, large 
families, and other vulnerable layers of the population.'' Services 
they provide include ``psychological consulting both to children and 
adults,'' and ``legal assistance to the women suffering domestic/
sexual/societal'' violence. The Web site appeared to be a typical 
marriage agency, and claimed that its purpose was to provide 
``assistance to the lonely people inside Russia and all over the world 
in creating families though Internet.'' The descriptions of the women 
do not say they have previously been abused, although there are a 
number of women whose average age is higher than most marriage agency 
Web sites.
    There are also marriage agencies offering introduction services and 
pornography of women with disabilities. One site from Russia markets 
women with missing limbs. The services are marketed to men with 
fetishes for missing limbs, amputated limbs or congenital 
malformations. According to an amputee pornographer, ``The shorter the 
stump is, the sexier an amputee.'' The photographs on the marriage 
agency site range from modest to sexualized. The descriptions of the 
women often include pledges of loyalty to a man who will take care of 
them. On the same agency site are photographs of orphans with 
disabilities. Viewers are urged to send gifts or adopt them.
    Women and orphans with disabilities are extremely vulnerable. The 
loss of social supports following the collapse of the Soviet Union has 
severely worsened the circumstances for many. It would be wonderful to 
think of ways that people could support these women and children, but 
after viewing this site, one is left with a sick feeling for how they 
may be exploited and abused by men who offer to marry or adopt them.

        MARRIAGE AND SEX TOUR AGENCIES BANNED IN THE PHILIPPINES

    In the 1990s, the government of the Philippines banned the 
operation of marriage agencies and sex tour agencies. I don't know if 
there have been any prosecutions, but this new law did cause American 
operators of marriage agencies to move their agencies out of the 
Philippines. One man who operated a marriage agency complained on this 
Web site about this new law: ``The Philippines government is definitely 
working against the interests of their own people. These girls want and 
need to leave that country.'' Yet, he did not want to risk arrest under 
the new law so he withdrew from the Philippines and moved his operation 
to the United States. He continues his marriage agency business by 
using his own Filipina wife to contact and recruit women and girls in 
the Philippines.

            MARKETING MULTIPLE FORMS OF SEXUAL EXPLOITATION

    Many of the marriage agencies are part of larger commercial 
operations that offer a number of services, some of which are blatantly 
connected to the sex industry or involve the sexual exploitation of 
women. These multiple services include: the marriage agency, tours for 
men to meet women, escort services (prostitution), modelling agencies, 
production of pornography, and travel agencies. A number of the 
marriage agency Web sites have links to pornographic Web sites and 
prostitution services.
    I documented the involvement of one marriage agency in the 
Philippines with sex tourism and prostitution:

          At the top of the first page of the Web site is a picture of 
        a Filipina inviting the men to ``Come explore the Philippines 
        with me!'' The advertisement describes the Philippines as an 
        ``exotic and interesting place to visit.'' Information is given 
        on tickets, lodging, food and water, money changing, nightlife 
        and the tour schedule. Prostitution is briefly mentioned as 
        being ``everywhere,'' and a price range for prostitutes is 
        listed. Men are told, ``You can partake or not, it's up to you. 
        Most do partake.'' Marriage is also briefly mentioned: ``As 
        most of you know, the Philippines is the happy hunting ground 
        for men seeking a wife. There are all kinds of women of every 
        description. It's hard to go to the Philippines and not get 
        caught up in the idea of marriage. The whole lifestyle seems to 
        revolve around love, marriage and kids.'' On the next linked 
        page the man is asked ``would you like to have a beautiful 
        female companion as a private tour guide?'' or ``would you like 
        to have introductions to `decent' marriage minded ladies?'' If 
        he chooses the private tour guide he is directed to the X-Rated 
        Escorted Tours. At the top of this page a picture of the same 
        Filipina from the introductory page appears, this time with her 
        breasts exposed. The woman invites the men to ``Come explore 
        the Philippines and Me!'' Much of the same travel information 
        is repeated, but here the man finds out how much it costs to 
        have an ``escort'' during his trip. The fee is paid to the 
        travel agent-pimp, not the woman. The agent suggests that the 
        sex tourist tip the woman. The viewer can also choose the 
        marriage option and he is then directed to the linked page on 
        Over Seas Ladies. There he is asked if he is tired of watching 
        TV and having women make him jump through hoops. He is told 
        that the women here ``respond to every gesture and kindness, no 
        matter how small.'' He is reassured that these women are not 
        concerned about his age, appearance, or wealth. Here the man is 
        presented with pages of pictures of women from which he can 
        choose. The agency sells the addresses of the women to the man. 
        For an extra fee the buyer can have a lifetime membership that 
        entitles him to the addresses of all the women, those currently 
        available and those in the future. (If the man is seeking a 
        permanent relationship, why he might want or need a lifetime 
        membership is not explained.) On the next linked page is 
        Escorted Wife Seeking Tours. The man is told: ``You will meet a 
        lot of beau4ful women there. Your penpals that you have been 
        writing to will be happy to see you. The new women you meet 
        will be generally `good' girls, but there are plenty of bar 
        girls there too and you will surely encounter some.''

    Marriage agencies in Russia and Ukraine also have this type of 
combination of services for sexual exploitation. In addition to selling 
addresses of women for possible marriage, they offer to facilitate the 
travel of men to meet women. These agencies offer escort services 
(prostitution) along with the ``romance'' tours. Several agencies 
advertise that men can come and photograph women in ``private nude 
photo sessions of Russian models'' from their modeling agency. Another 
agency offers to take ``nude'' and ``skin flick'' photographs and 
videos of the women they are interested in meeting.
    Several of the Russian agencies include nude photos of the women on 
their Web site. Some of the agency sites seem to be fully integrated 
into the sex industry. One example is a site that offers Russian 
brides, escort services, and Russian pornography. There are links on 
many of the agency Web sites that connect to typical sex industry 
(prostitution and pornography) sites.
    Some of the marriage agencies and introduction services appear to 
operate as little more than prostitution tour agencies. The men often 
expect to have sex with the women. One man admitted to a reporter: 
``We're not here to get married.'' They use the marriage agency 
``romance tours'' as sex or prostitution tourism.

                 MARRIAGE AGENCIES AND SEX TRAFFICKING

    It is easy to document how marriage agencies are involved in many 
forms of sexual exploitation and put vulnerable women and children at 
risk. It is harder to prove involvement of these agencies in sex 
trafficking as the crime is defined by law, which requires proof of 
force, fraud, or coercion.
    Workers in the St. Petersburg Psychological Crisis Center for Women 
in Russia report that they have heard of women recruited by marriage 
agencies being trafficked into the sex industry. In Russia and other 
countries of the former Soviet Union, there have been so few 
trafficking cases prosecuted that getting detailed information on how 
the women were recruited is difficult. Although, information from non-
governmental organizations working in these countries indicates that 
marriage agencies are involved in sex trafficking as well as other 
forms of sexual exploitation.
    Some of the marriage agencies operate tour agencies that facilitate 
the travel and potential trafficking of women. In Chelyabinsk, Russia, 
an NGO representative said that the traffickers operate in travel 
agencies, with each agency specializing in one particular country where 
women are sent. In St. Petersburg, an NGO representative said that 
marriage agencies are well-organized business and ``well protected'' by 
the political-business-criminal networks. As in Chelyabinsk, the same 
people who own marriage agencies also own foreign travel and employment 
agencies, some of which are known to be traffickers.
    One multiple service Russian agency offers to send women to meet 
men in other countries. If men don't want to travel to Russia, or don't 
want the problem of getting a visa, the agency will arrange to send a 
woman to another country to meet the man. It is easy to see how this 
could be a front for trafficking and even a way to deceive the woman 
into thinking she is going abroad to meet a particular man.
    There are a number of aspects of these types of agencies that 
indicate that they are likely to be involved. 1) They have recruited a 
number of women who have indicated a desire to travel abroad or 
emigrate; 2) The women are single and able to move, although some of 
them may have children; 3) The women may have tried corresponding with 
men, meeting Western men on tours sponsored by the agencies, and now be 
more willing to go abroad if they agency makes them an offer; and 4) 
the agencies have extensive personal information about the women and 
their families that is often used to coerce women into prostitution 
once they are abroad.
    One can see how an agency offering a combination of services could 
be involved in trafficking, especially those that essentially have a 
data base of information on women who are single and expressed an 
interest in going abroad. It is difficult to know how many of these 
agencies are providing the services they claim of selling addresses, 
and how many are involved in activities that meet the criminal 
definition of trafficking in women.
 quantitative research on marriage agencies in the former soviet union
    A few years ago, I conducted a quantitative study on the 
recruitment of women by marriage agencies in the countries of the 
former Soviet Union. There is no known previous research that 
quantifies and maps the numbers of women recruited by ``marriage 
agencies.'' The goals of this research were to determine: 1) How many 
Internet-based ``marriage agencies'' are operating in these countries? 
2) How many women have been recruited by these agencies? 3) If there 
are particular countries, regions, and oblasts \1\ from which women are 
being recruited? 4) Are these the same countries, regions, and oblasts 
from which women are known to be trafficked into sex industries? The 
search found almost 500 marriage agency sites with women from former 
Soviet republics. Two hundred and nineteen (219) of these Web sites 
were indexed into a database. The 219 marriage agencies had a total of 
119,649 women on their sites.
---------------------------------------------------------------------------
    \1\ An oblast is an administrative division in countries of the 
former Soviet Union, roughly equivalent to a province or state. Ukraine 
is comprised of 24 oblasts and one autonomous republic. Belarus is 
made-up of six ``voblasts,'' and the Russian Federation is made up of 
49 oblasts, 21 republics, 10 autonomous okrugs, six krays, two federal 
cities, and one autonomous oblast. For simplicity, this paper will 
refer to administrative divisions as ``oblasts'' in the generic sense.
---------------------------------------------------------------------------
    Although there are large differences in the size and populations of 
these 15 countries, there are still noticeable differences in the 
recruitment of women by marriage agencies in these countries. (See 
Table 1 and Map 1) The countries with the largest numbers of women were 
the Russian Federation with over 62,000 women, followed by Ukraine with 
almost 32,000, and Belarus with almost 13,000. Countries with a few 
thousand recruited women were: Kazakhstan (3,037), Kyrgyzstan (4,190), 
Latvia (1,760), and Uzbekistan (1,139). The other countries had less 
than 1,000 recruited women: Azerbaijan (204), Estonia (551), Lithuania 
(626), Moldova (884), and a few countries had less than a couple of 
dozen women, Armenia (23), Georgia (7), Tajikistan (8), and 
Turkmenistan (25).
    In the Russian Federation, there were large differences in the 
number of women recruited from each oblast. (See Table 2 and Map 2) The 
oblasts of Russia with the highest number of recruited women are in the 
western half of Russia, mostly in Europe (St. Petersburg, 15,694; 
Volgograd, 4,897; Moscow, 3,642, and Yekateringburg, 2,003, which 
straddles the European-Asian continental divide). Only ten oblasts had 
more than 1,000 women. St. Petersburg, with by far the highest number--
almost 16,000--represented over three times the number of women 
recruited compared to the next closest oblasts--Volgograd in 
southwestern Russia with almost 4,900 and Moscow, the capital, with 
over 3,600. Some of the oblasts of southwestern Siberia (Omsk, 731 and 
Noosibirsk, 655) are the home of a moderate number of recruited women. 
Fewer than 100 women were recruited from 41 of the oblasts. Fewer than 
ten women were recruited from eleven of the oblasts (Dagestan, 8; 
Khakassia, 7; Alania, 4; Karachay-Cherkessia, 4; Birobijan, 3; Chita 3; 
Chukot, 2; Kalmykia 2; Yamalo-Nenets 2; Komi-Permyak, 1; and Tuva, 1).
    There are considerable differences in population among the oblasts 
in Russia. The size of the difference in the number of women 
recruited--for example Moscow city oblast compared to oblasts in 
central Siberia--may partially be a reflection of the population size 
and density, but the numbers of recruited women are not always in 
direct proportion to total population.
    There were sizeable differences in the number of women recruited by 
oblast in Ukraine also. (See Table 3 and Map 3.) In Ukraine, there are 
a few distinct patterns for the recruitment of women by marriage 
agencies. The Crimea, the southern most oblast in the Black Sea, has 
the largest number of women recruited (5,515). Oblasts with large 
cities, such as the capital Kyiv (3401), Odessa (3,225), and 
Dnipropetrovsk (2,742) also have large numbers of women in the marriage 
agencies. Generally, the oblasts with the lowest numbers of recruited 
women are in the western Ukraine. Seven of the nine oblasts with less 
than 50 recruited women were in western Ukraine (Zakarpats'ka, 46; 
L'viv, 41; Khmelnysts'ka, 28; Volyns'ka, 24; Ternopil, 12; Ivano-
Frankivsk, 10; and Rivnens'ka, 2). There is a trend that the farther 
east, towards Russia, you move, the more women are recruited by 
marriage agencies. Also, the southern oblasts on the Black Sea have 
fairly high numbers of women recruited from them.
    In Ukraine, generally speaking, there are cultural differences 
between western and eastern Ukraine. Western Ukraine is more 
traditional and Ukrainian nationalist, while eastern Ukraine is more 
identified with Russian culture. How this might influence the operation 
and recruitment of women by marriage agencies resulting in increased 
recruitment of women from more Russian-identified regions is a question 
for further research.
    Southern Ukraine has many popular resort areas. Interviews with 160 
young women from Southern oblasts of Ukraine, where there was high 
recruitment by marriage agencies, found that two-thirds of them wanted 
to go abroad. Forty percent of them said they knew there was a risk of 
being forced into prostitution, but they were sure that it would not 
happen to them. In Yalta, a resort city, 97 percent of those surveyed 
said they wanted to go abroad. A few--six percent--said they were so 
eager to go abroad that they would agree to be in prostitution, even to 
being ``sex slaves,'' in order to have a rich life (Hughes & Denisova 
2002).
    The mapping of the numbers and location of women recruited by 
marriage agencies reveals some distinct patterns. Clearly, there is not 
uniform recruitment of women across the 15 countries or within the 
countries. Some of the variation may be explained by population size in 
each of the areas, but the operation of recruiters for marriage 
agencies also must play a role. Likely factors contributing to the 
presence of recruiters are urban areas, especially tourist areas, where 
people have more interaction and connections to Western Europe and the 
U.S.--the markets for the women. This is an area that warrants further 
investigation.
    This study was not able to link specific trafficking cases to 
marriage agencies for two reasons: firstly, discovering all the details 
of trafficking cases is difficult, and secondly, official record 
keeping on cases of trafficking is poor or non-existent. For example, 
trafficking of women was not a crime in the Russian Federation when 
this research was done; consequently, there are no official cases. In 
Ukraine, there has been a law against trafficking since 1998, but 
relatively few traffickers have been convicted. However, NGOs in 
countries of origin and destination report knowing that women are 
trafficked through marriage agencies.

                               CONCLUSION

    In countries where recruitment of women by marriage agencies is 
popular, the general public does not understand the risk of signing up 
with these agencies. A NGO worker in St. Petersburg said that her 
mother was urging her to sign up. She said her mother said, ``Why waste 
your time with that work. Why not correspond with a Western man and 
find a better life?'' She said she knew of cases in which women are 
afraid to go to the agencies alone, so mothers accompany their 
daughters to sign them up.
    There is an abundance of evidence that marriage agencies are 
involved in activities that result in the sexual exploitation of women 
and children. It is harder to make links between specific marriage 
agencies and sex trafficking as defmed by law. There are many anecdotal 
reports from NGOs about the involvement of marriage agencies in the sex 
trafficking of women, but more investigations and collection of 
evidence into official cases are needed to firmly document their 
involvement.

  TABLE 1--WOMEN RECRUITED BY MARRIAGE AGENCIES FROM COUNTRIES OF THE 
                          FORMER SOVIET UNION


------------------------------------------------------------------------

------------------------------------------------------------------------
Armenia                                         23
Azerbaijan                                      204
Belarus                                         12,683
Estonia                                         551
Georgia                                         7
Kazakhstan                                      3037
Kyrgyzstan                                      4190
Latvia                                          1760
Lithuania                                       626
Moldova                                         884
Russian Federation                              62,605
Tajikistan                                      8
Turkmenistan                                    25
Ukraine                                         31,837
Uzbekistan                                      1,139
Unknown                                         70
                                               -------------------------
  Total                                         119,649
------------------------------------------------------------------------


TABLE 2--WOMEN RECRUITED BY MARRIAGE AGENCIES IN THE RUSSIAN FEDERATION 
                               BY OBLAST


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Adygea                    18                   ...................  Moscow                    3642
Alania                    4                    ...................  Murmansk                  43
Altai                     73                   ...................  Nizhniy Novgorod          178
Amur                      25                   ...................  Novgorod                  502
Arkhangelsk               253                  ...................  Novosibirsk               655
Astrakhan'                429                  ...................  Omsk                      731
Bashkortostan             440                  ...................  Orel Oblast               72
Belgorod                  86                   ...................  Orenburg                  96
Birobijan                 3                    ...................  Penza                     311
Bryansk                   69                   ...................  Mordovia                  14
Buryatia                  15                   ...................  Perm                      221
Chelyabinsk               474                  ...................  Primorskiy                645
Chita                     3                    ...................  Pskov                     55
Chukot                    2                    ...................  Rostov                    1044
Chuvashia                 154                  ...................  Ryazan'                   282
Dagestan                  8                    ...................  Sakhalin                  178
lrkutsk                   133                  ...................  Samara                    1510
Ivanovo                   32                   ...................  Saratov                   2344
Kabardino-Balkaria        22                   ...................  Smolensk                  23
Kaliningrad               295                  ...................  St. Petersburg            15694
Kalmykia                  2                    ...................  Stavropol                 365
Kaluga                    72                   ...................  Tambov                    111
Kamchatka                 27                   ...................  Tatarstan                 2165
Karachay-Cherkessia       4                    ...................  Taymyr                    31
Karelia                   49                   ...................  Tomsk                     235
Kemerovo                  173                  ...................  Tula                      43
Khabarovsk                313                  ...................  Tuva                      1
Khakassia                 7                    ...................  Tver                      1373
Khanty-Mansi              41                   ...................  Tyumen                    159
Kirov                     26                   ...................  Udmurtia                  317
Komi                      203                  ...................  Ul'yanovsk                280
Komi-Permyak              1                    ...................  Vladimir                  58
Kostroma                  10                   ...................  Volgograd                 4897
Krasnodar                 834                  ...................  Vologda                   60
Krasnoyarsk               175                  ...................  Voronezh                  121
Kurgan                    82                   ...................  Yakutia                   21
Kursk                     27                   ...................  Yamalo-Nenets             2
Lipetsk                   82                   ...................  Yaroslavl                 64
Magadan                   22                   ...................  Yekateringburg            2003
Mari-El                   1869                 ...................  Not Known                 14967
                          ...................  ...................    Total                   62605
----------------------------------------------------------------------------------------------------------------


  TABLE 3--WOMEN RECRUITED BY MARRIAGE AGENCIES IN UKRAINE, BY OBLAST


----------------------------------------------------------------------------------------------------------------

----------------------------------------------------------------------------------------------------------------
Cherkas'ka                149                  ...................  Mykolayiv                 533
Chernivhivs'ka            35                   ...................  Odessa                    3225
Chernivitsi               268                  ...................  Poltava                   368
Dnipropetrovsk            2742                 ...................  Respublika Krym           551
Donetsk                   1055                 ...................  Rivnens'ka                2
Ivano-Frankivsk           10                   ...................  Sums'ka                   1994
Kharkivs'ka               1188                 ...................  Ternopil'                 12
Khersons'ka               1053                 ...................  Vinnytsya                 440
Khmelnyts'ka              28                   ...................  Volyns'ka                 24
Kiev                      3401                 ...................  Zakarpats'ka              46
Kirovohrads'ka            10                   ...................  Zaporizhzhya              539
Luhans'ka                 281                  ...................  Zhytomyr                  125
L'viv                     41                   ...................  Unknown                   8753
                          ...................  ...................    Total                   31837
----------------------------------------------------------------------------------------------------------------

                                                                                              <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                              
                                                                                              <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                              
                                                                                              <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                                                                                              
                               references
Hughes, Donna M. ``Supplying Women for the Sex Industry: Trafficking 
        from the Russian Federation,'' in Sexualities in Post-
        Communism, Aleksandar Stulhofer (Editor) Haworth Press 
        (Forthcoming) http://www.uri.edu/artsci/wms/hughes/
        supplying_women.pdf

Hughes, Donna M. 2004. ``The Role of `Marriage Agencies' in the Sexual 
        Exploitation of Women from the Former Soviet Union,'' 
        International Review of Victimology, Vol. 11, pp. 49-71.

Hughes, Donna M. 2003. The Impact of the Use of New Communications and 
        Information Technologies on the Trafficking of Women: A Study 
        of the Users, The Group of Specialists on the Impact of the Use 
        of New Information Technologies on Trafficking in Human Beings 
        for the Purpose of Sexual Exploitation, Committee for Equality 
        between Women and Men, Council of Europe. http://www.uri.edu/
        artsci/wms/hughes/eg-n-st_flnal_report.doc
          ``Marriage agencies and images,'' Nov 2001
          http://www.uri.edu/artsci/wms/hughes/agencies_and_images.pdf

Hughes, Donna M. 2002. ``Use of New Information and Communication 
        Technologies for Sexual Exploitation of Women and Children,'' 
        Hastings Women's Law Journal, Vol. 13, No. 1, pp. 129-148.

Hughes, Donna M. July 2002. Trafficking for Sexual Exploitation: The 
        Case of the Russian Federation, IOM Migration Research Series, 
        International Organization for Migration, No. 7, 68 pages. 
        http://www.uri.edu/artsci/wms/hughes/russia.pdf

Hughes, Donna M. and Tatyana A. Denisova, ``The Transnational Political 
        Criminal Nexus of Trafficking of Women in Ukraine,'' Trends in 
        Organized Crime Vol. 6, No. 3-4: Spr.-Sum. 2001 (Printing date 
        March 2003) http://www.uri.edu/artsci/wms/hughes/tpcnexus.pdf

Hughes, Donna M. 1999. Pimps and Predators on the Internet--Globalizing 
        the Sexual Exploitation of Women and Children. Kingston, Rhode 
        Island: The Coalition Against Trafficking in Women, 80 pages. 
        ISBN 0-9670857-1-3 http://www.uri.edu/artsci/wms/hughes/
        pprep.pdf

    Senator Brownback. Thank you very much.
    Do you know what is an average price for brokering? Have 
you been able to track that?
    Dr. Hughes. Well, they usually charge anywhere from $10 to 
$15 per address or sometimes they will say, but then you can 
have 15 addresses for $100. Sometimes they have deals of 
lifetime memberships, although what you would need a lifetime 
membership for, if you are supposedly seeking a wife, I am not 
sure. Of course, then they offer tours for the men to go on to 
meet the women, either the ones they have been corresponding 
with or women they have never met before, and those can be the 
price of an airline ticket plus the hotels plus whatever profit 
they are able to put on top of it. So I think it is important 
to understand that a lot of these agencies are making money any 
way they can, whether it is selling addresses, providing women 
for prostitution, maybe trafficking the women abroad, even 
making money doing things like delivering flowers for the man 
and making a profit on top of that.
    Senator Brownback. And what do the women get out of this or 
charge?
    Dr. Hughes. They usually are not charged anything.
    Senator Brownback. So they are offering themselves and 
putting themselves in harm's way.
    Dr. Hughes. Right, in the hope of meeting Mr. Right.
    Senator Brownback. Ms. Jackson.

    STATEMENT OF SUZANNE H. JACKSON, ASSOCIATE PROFESSOR OF 
     CLINICAL LAW, GEORGE WASHINGTON UNIVERSITY LAW SCHOOL

    Ms. Jackson. Thank you Senator Brownback, Senator Cantwell, 
and to the rest of the committee for the opportunity to testify 
today.
    Before becoming a law professor, I worked as an attorney 
here in the District of Columbia representing immigrants and 
refugees seeking to escape abusive relationships. Most of my 
clients did not speak much English and had to overcome many 
obstacles before they could escape domestic violence. Two of my 
clients had met their husbands through mail order bride 
companies, and it is because of the particular hardships that 
they endured that I began researching this issue when I entered 
academia. The legal landscape facing women in this situation 
has changed dramatically since those days, in no small part due 
to the excellent work of this committee in the hearings upon 
and shaping of the Trafficking Victims Protection Act of 2000.
    The IMOs, or international matchmaking organizations, have 
been linked to criminal trafficking in several ways. They can 
be nothing more than fronts for criminal trafficking 
organizations in which adults and girls are offered to the 
public as brides, but sold privately into prostitution or 
forced marriage--including marriages to men who prostitute 
them--or held in domestic slavery. Global Survival Network 
found that most mail order bride agencies in Russia have 
expanded their activities to include trafficking for 
prostitution. European embassies have reported that a number of 
matchmaking agencies conceal organized prostitution rings 
victimizing newly arrived Filipina women. Asian groups have 
used fiancee visas and marriage with a so-called jockey, which 
is an escort bringing women across the U.S. border, to bring 
women into the United States for purposes of prostitution. And 
jockeys have even included U.S. military personnel stationed 
abroad.
    IMOs' practices exacerbate problems with false 
expectations, requiring women to complete long questionnaires 
with very intrusive and detailed personal questions, 
encouraging disclosure by implying or stating that false 
answers could lead to cancellation of any ensuing immigration 
benefits. Women are also subjected to medical and background 
checks and may assume that participating men are evaluated with 
the same level of scrutiny. Women from other countries often 
assume that all governmental agencies in the United States, a 
country with extraordinary resources and technology, have 
access to information held by other agencies, that facts 
asserted in applications for immigration benefits would be 
checked, and that a man who had been convicted of serious 
violent crimes would not be permitted to bring a spouse or 
fiancee into the U.S. from abroad. The industry does nothing, 
however, to screen male customers, no detailed questionnaire, 
no check for a criminal record or abuse, no formal inquiry as 
to whether men are already married. Until recently, the U.S. 
Government did not conduct these inquiries either.
    An IMO can also be a useful tool of and a collaborator with 
individual men who seek to exploit women whom they import to 
the United States. U.S. citizens can use isolation, domination, 
and threats of deportation to get an immigrant woman to perform 
domestic and sexual services on demand. One commentator in an 
Internet discussion of the pros and cons of paying for a mail 
order bride pointed out that it can be much less expensive to 
purchase a wife than to pay for prostitution services which do 
not typically include free housekeeping and cooking.
    Men have also used imprisonment and vicious violence to 
sexually exploit and prostitute young women. One Honduran woman 
was kept a prisoner, together with the U.S. citizen's wife, in 
a man's home by bars on the windows. Another was kept in the 
house on an ankle chain. One 17-year-old from the Philippines 
was abused, sexually exploited, and then pimped into 
prostitution.
    The CIA found that the mail order bride brokers are not 
traffickers per se, but when there is deception or fraudulent 
nondisclosure of known facts concerning the nature of the 
relationship being entered into or the criminal or abusive 
background of the client--that is the male client--the broker 
should be liable as traffickers. Individuals using IMOs to find 
women whom they prostitute to others or who they use as their 
own personal prostitutes or domestic servants should be 
criminally liable as traffickers on the same theory. Knowing 
deception or fraud used intentionally to persuade a woman or 
girl to travel to the United States and perhaps even to marry, 
in order to mistreat and exploit her for personal profit or 
gain, is no less criminal trafficking in persons when 
accomplished by an individual instead of an organization. 
Although the Department of Justice is enforcing criminal laws 
against international travel for purposes of having sex with a 
child, not one sex trafficking case has been brought against an 
individual who has used a mail order bride agency to obtain and 
sexually exploit a vulnerable immigrant woman. It could be that 
the case that you mentioned at the beginning would have been an 
exception to that had the man not committed suicide.
    Commercial sex is defined in the Trafficking Victims 
Protection act as any sex act on account of which anything of 
value is given or received by any person. When an IMO sells a 
young woman for sexual purposes, as in a Web page openly 
offering sex with 15- to 17-year-old Thai girls boasting that a 
girl could be delivered anywhere in the world, charging extra 
to deliver a virgin, and also offering that if the customer 
paid $4,000 more, then she is like your slave forever, this is 
clearly commercial sex trafficking. But when a citizen 
threatens to----
    Senator Brownback. Excuse me. Let me just stop you there. 
What are the prices that they are putting there in that section 
you were talking about?
    Ms. Jackson. It is $4,000 for delivery of a young, underage 
girl for sexual purposes, and for an additional $4,000, she is 
your slave forever.
    Senator Brownback. So $8,000 for a slave, female sex slave 
basically.
    Ms. Jackson. That is right. And that is less than it takes 
for an individual to go and get a mail order bride--that is 
more actually. That is about double what it takes for an 
individual to go and get a mail order bride from any other 
country to bring her into the United States, even including the 
fees to the trafficking organizations.
    When a citizen threatens to revoke an application for a 
green card unless an immigrant submits to sex, the valuable 
consideration of legal residency in the U.S. fulfills both the 
commercial sex requirement and the coercion requirement of the 
criminal sex trafficking statute.
    I have one last point to make.
    Senator Brownback. Please go ahead.
    Ms. Jackson. During the 1970s and 1980s, an average of 
5,300 fiancee petitions were filed each year, about 1,100 of 
which did not result in an adjustment of status to permanent 
residents. So these are people who got in as fiancees who were 
not made wives. During the 1990s, the number of fiancee 
petitions rose to 6,400 a year, while the number of adjustments 
remained the same. So the missing or rejected fiancees between 
the 1970s and the 1980s, and the 1990s, doubled. There was no 
increase in the number of people who were adjusted to permanent 
residents. The INS in a report acknowledged that foreign 
traffickers are attracted to the United States because of the 
ability to get fiancee visas, but in that report they never 
connected the doubling of the number of fiancee visas and the 
failure to turn those into spouses as evidence itself of sex 
trafficking in women.
    The proposals that have been made to improve the situation 
regarding matchmaking organizations are excellent and should 
place minimal burdens on individuals and the companies. But if 
regulations are not in place to ensure that Congress' 
enactments have the force of law, the study that is proposed by 
Senator Cantwell and other reforms contemplated will be 
meaningless. In the June 23, 2004 Federal Register, the notice 
of proposed rulemaking for a law passed in 1996 to require IMOs 
to give mail order brides information about their rights in the 
United States will not be issued until sometime in December of 
this year. That is 8 years since the final comment period ended 
on that regulation. Even though there have been regulations 
passed to control the IMO industry, they are not being 
enforced. They have not been implemented by the executive, and 
without that, the laws themselves might as well not have been 
written.
    I thank you for the committee's efforts to combat 
trafficking and abuses of the international matchmaking 
industry and for your consideration of my testimony.
    [The prepared statement of Ms. Jackson follows:]

                Prepared Statement of Suzanne H. Jackson

    Thank you to Senator Brownback and to the rest of the Committee for 
the opportunity to testify today. My name is Suzanne Jackson, and I am 
an Associate Professor of Clinical Law at George Washington Law School. 
Before becoming a law professor, I worked as an attorney here in the 
District of Columbia, representing immigrants and refugees seeking to 
escape abusive relationships. Most of my clients did not speak much 
English, and had to overcome many obstacles before they could be free 
of the threat of domestic violence. Two of my clients had met their 
husbands through ``mail-order bride'' companies, and it is because of 
the particular hardships they endured within the legal system that I 
began to research the relationship between the ``mail-order bride'' 
industry and trafficking in women. The legal landscape has, on the 
whole, improved significantly since those days, thanks in great part to 
the work of this Committee in conducting hearings on and shaping the 
Trafficking Victims Protection Act of 2000.
    I will refer to the companies as international matchmaking 
organizations or IMOs rather than ``mail-order bride'' agencies, even 
though the term IMO inaccurately conveys gender neutrality and a 
``match'' or some level of equality between the parties. Nothing could 
be further from the truth: IMOs exist for the benefit of their paying 
customers: men \1\ from wealthy nations, including the United States, 
Japan and Germany, who want access to women who, most often, have 
neither economic nor social power. Marketing strategies used by IMOs 
advertise women as generic to their ethnicity--all Russian women are X, 
all Asian women are Y, all Latinas are Z--and emphasize that the women 
they offer (women who are in fact hoping to leave their home countries) 
will all be ``home-oriented'' and ``traditional'' wives. Some companies 
guarantee women's availability, others guarantee marriage within a year 
of subscribing to their service, one even allows a man to remove a 
woman from the Web site to prevent competition during a courtship: 
``Select One, She's Yours,'' promises this company.\2\
    IMOs have been linked to criminal trafficking in several ways. They 
can be nothing more than fronts for criminal trafficking organizations, 
in which adults and girls are offered to the public as brides but sold 
privately into prostitution, forced into marriage (including marriages 
to men who then prostitute them),\3\ or held in domestic slavery. 
Police in the United Kingdom found organized criminal gangs from 
Russia, the former Soviet Union and the Balkans using the Internet to 
advertise women for sale to brothels in Western Europe and also to men 
as ``Internet brides.'' \4\ A study by Global Survival Network (GSN) 
found that most mail-order bride agencies in Russia have expanded their 
activities to include trafficking for prostitution. European embassies 
have reported that a number of matchmaking agencies conceal organized 
prostitution rings victimizing newly-arrived Filipina women. Asian 
groups have used fiancee visas and marriage with a so-called ``jockey'' 
(an escort bringing women across the U.S. border) to bring women into 
the U.S. for purposes of prostitution;\5\ jockeys have even included 
U.S. military personnel posted abroad.
    IMOs are almost completely unregulated, advertise minors for 
marriage, and fail to screen their male clients for criminal histories. 
with false expectations: they require women to complete long 
questionnaires asking intrusive personal questions, encouraging 
disclosure by implying or stating that false answers could lead to 
cancellation of any ensuing immigration benefits. Women are also 
subjected to medical and background checks, and may assume that 
participating men are evaluated with the same level of scrutiny. Women 
from other countries often assume that all governmental agencies in the 
United States--a country with extraordinary resources and technology--
have access to information held by other agencies, that facts asserted 
in applications for immigration benefits would be checked, and that a 
man who had been convicted of serious violent crimes would not be 
permitted to bring a spouse or fiancee into the U.S. from abroad. The 
industry does nothing, however, to screen male customers: no detailed 
questionnaire, no check for a criminal record for spousal or child 
abuse, no formal inquiry as to whether men are already married. Until 
recently, the U.S. government also did not conduct these inquiries.
    An IMO can also be a useful tool of, and sometimes a knowing 
collaborator with, an individual man who wishes to obtain control over 
a woman in order to exploit her. A U.S. citizen can use isolation, 
domination, and threats of deportation to get an immigrant woman to 
perform domestic and sexual services on demand. One commentator in an 
Internet discussion of the pros and cons of paying for a ``mail-order'' 
bride, pointed out that it can be much less expensive to purchase a 
wife than to pay for prostitution services, which don't also include 
free housekeeping and cooking. Men have also used imprisonment and 
vicious violence to sexually exploit and prostitute young women. One 
Honduran woman was kept a prisoner--together with the U.S. citizen's 
wife--in a man's home by bars on the windows; another was kept in the 
house on an ankle chain; one 17-year old from the Phillipines was 
abused, sexually exploited, and then pimped into prostitution.\6\
    Because of these practices, the CIA found that ``[m]ail order bride 
brokers . . . are not traffickers per se; but, where there is deception 
or fraudulent non-disclosure of known facts concerning the nature of 
the relationship being entered into or the criminal or abusive 
background of the client, the brokers should be liable as 
traffickers.''\7\ Individuals using IMOs to find women whom they 
prostitute to others or use as their own ``personal prostitutes'' \8\ 
or domestic servants should be criminally liable as traffickers on the 
same theory. Knowing deception--fraud--used intentionally to cause a 
woman or girl to travel to the U.S. and perhaps even to marry, in order 
to mistreat and exploit her for personal profit or gain, is no less 
criminal trafficking in persons when accomplished by an individual 
instead of an organization. Although the Department of Justice is 
enforcing the criminal laws against international travel for purposes 
of having sex with a child, not one sex trafficking case has been 
brought against an individual who has used a mail-order bride 
organization to obtain and sexually exploit a vulnerable immigrant 
woman.\9\
    Abusive IMO-arranged marriages should be evaluated for evidence of 
criminal trafficking. Consider the following examples:

  <bullet> A U.S. citizen puts new locks on the outside of his doors, 
        and installs a security system with keyed window locks. He 
        searches the Internet for the youngest possible girls available 
        on mail-order bride Web sites. He pays a company's $4,500 fee, 
        travels abroad, proposes marriage to a young woman, and brings 
        his prospective wife to the U.S. with a fiancee visa. When they 
        arrive at his home, he takes her down to the basement and 
        terrorizes her, keeping her locked there for weeks. When he 
        believes that she is too afraid to try to escape, he allows her 
        out of the basement but not out of the house, forcing her to do 
        housework and have sex with him on demand.

  <bullet> A U.S. citizen lives in a remote, rural area, and 
        accomplishes the above with repeated physical and sexual abuse, 
        but without need for locks, as the nearest house is thirty 
        miles away.

  <bullet> Add to the facts in both scenarios above that the citizen 
        forces a woman to have sex with other men who pay him for the 
        privilege.

  <bullet> Add to the facts in any scenario that instead of using a 
        fiancee visa to ``secure a woman's entry into the U.S., the man 
        marries her abroad and brings her to the U.S. as his wife.

    These scenarios, distilled from actual cases,\10\ all fulfill the 
elements of the federal crime of forced labor: domestic labor or sexual 
services intentionally obtained by the use of physical restraint and 
threats of serious harm. They should also satisfy the elements of 
criminal sex trafficking, if the required element of ``commercial sex 
act'' is interpreted on the basis of the statutory language rather than 
a myopic intepretation focusing exclusively on brothel-based 
prostitution or monetary transactions.
    Commercial sex is defined in the Trafficking Victims Protection Act 
as ``any sex act, on account of which anything of value is given to or 
received by any person.'' When an with fifteen- to seventeen-year old 
Thai girls, boasting that a girl could be delivered ``anywhere in the 
world,'' charging extra to deliver a virgin, and also offered girls for 
sale outright--pay $4,000 more, the company promised, ``and then she is 
like your slave forever.'' \11\--this is clearly commercial sex 
trafficking. If both parties to the sale know that the person will be 
forced or coerced to have sex, both are sex traffickers. The formality 
of a marriage or a supposed engagement to marry should not blind us to 
the federal crimes of sex trafficking, forced labor and involuntary 
servitude: when a citizen threatens to revoke an application for a 
green card unless an immigrant submits to sex, the valuable 
consideration of legal residency in the United States fulfills both the 
``commercial sex'' requirement and the coercion requirement of the 
criminal sex trafficking statute. The same applies in the context of 
sexual exploitation of domestic workers, migrant workers, sweatshop 
workers, or any instance where sex is coerced or forced through threats 
of deportation, so that a person is led to believe that on account of 
the sex act, the person will receive respite from threats of 
deportation.\12\ The criminal penalties for sex trafficking should be 
brought to bear against individuals who use IMOs to extort sex and 
domestic services from individual brought into the U.S. through fiancee 
visas or through marriage.
    IMOs also camouflage trafficking indirectly by inflating the number 
of visa applicants, which reduces governmental resources to evaluate 
individuals' requests for fiancee visas. Until recently, U.S. 
immigration authorities conducted no investigation of applicants for 
fiancee or spousal visas, not requiring any background criminal check, 
not asking whether the petitioner is legally able to marry, not even 
checking its own records to see if an applicant previously petitioned 
for another person. During the 1970s and 1980s, an average of 5,300 
fiancee petitions were filed each year, about 1,100 of which did not 
result in an adjustment to permanent resident status. During the 1990s, 
however, the number of fiancee petitions rose to 6,400 per year while 
adjustments remained the same. The number of missing or rejected 
fiancees had apparently doubled in a decade, averaging about 2,200 a 
year. A report by the INS noted that traffickers were interested in 
sending women to the U.S. because fiancee visas were easy to obtain, 
but did not observe that the rise in ``missing'' or rejected fiancees 
was itself evidence of trafficking.\13\ Since the tragedy of September 
11th, the Bureau of Citizenship and Immigration Services has increased 
scrutiny of all petitioners and beneficiaries of petitions for 
immigration benefits, including petitions for fiancee visas and 
marriage-based adjustment, and although implementation of these changes 
is only just beginning, they have reportedly already found much of 
interest as a result of these investigations.
    Senator Cantwell has made several excellent proposals to change the 
process for obtaining a fiancee visa, which if enacted and implemented 
would place minimal burdens on the IMOs and on the participants in the 
process, while likely preventing some serious abuses of the system. But 
even enacting such a law will accomplish nothing if Congress is not 
prepared to ensure that the laws are implemented by the Executive 
Branch. This is not the first piece of legislation recognizing and 
attempting to address problems in the U.S. that Congress in 1996 
ordered IMOs to provide information to their ``recruits'' on their 
rights under U.S. laws. Eight years later, this law is still not 
implemented or enforced.\14\ The comment period for the proposed 
regulation expired in 1997, yet the June 23, 2004 Federal Register 
announced that the Notice of Proposed Rulemaking will not be issued 
until sometime in December of this year. Senator Cantwell's legislation 
asks the Bureau of Citizenship and Immigration Services to complete a 
study of the industry and the extent of its compliance with the new 
requirements within two years of the legislation's enactment, but if 
the regulations are not in place to ensure that Congress' enactments 
have the force of law, this study and the other reforms contemplated, 
will be meaningless.
    Thank you for the Committee's efforts to combat trafficking and 
abuses of the international matchmaking industry, for the invitation to 
appear before you today, and for your consideration of my testimony.

                                 NOTES

    \1\ In three years of research I identified only two Web sites 
purporting to offer ``mail-order husbands,'' one of which was defunct, 
and the other a satire. Although one or two sites listed at Mail Order 
Bride Warehouse (www.goodwife.com) had listings for both men and women, 
over 350 sites (in 2002) provided only listings of women for review by 
male customers.
    \2\ The Mail Order Bride Latin Page, at http://www.goodwife.com/
latin (last visited Aug. 15, 2002).
    \3\ In a recent study of trafficked women in the U.S., experts 
interviewed forty trafficked women, finding that ``[h]usbands and 
boyfriends acted as pimps for some of the international (20%) and U.S. 
(28%) women. Coalition Against Trafficking in Women, ``Sex 
Trafficking,'' at 10. One of these women had been sold into marnage.
    \4\ Miller, Sex Gangs Sell Prostitutes over the Internet, The 
Guardian (U.K.), July 16, 2000, at 13.
    \5\ Amy O'Neill Richard, Center for the Study of Intelligence, 
International Trafficking in Women to the United States: A Contemporary 
Manifestation of Slavery and Organized Crime (Nov. 1999), at 8.
    \6\ See Suzanne H. Jackson, To Honor and Obey: Trafficking in 
``Mail-order Brides,'' 70 George Wash. L. Rev. 475, at notes 560-563 
(June 2002).
    \7\ Amy O'Neill Richard, ``International Trafficking in Women to 
the United States: A Contemporary Manifestation of Slavery and 
Organized Crime,'' Center for the Study of Intelligence, November, 
1999, citing Ali Miller and Alison Stewart, ``Report from the 
Roundtable on the Meaning of Trafficking in Persons: A Human Rights 
Perspective,'' Women's Rights Law Reporter, Rugtgers Law School Fall/
Winter 1998. The INS agreed. ``International Matchmaking Organizations: 
A Report to Congress,'' at 17-18 (March, 1999).
    \8\ The phrase ``personal prostitute'' was used by a reporter to 
describe a fifteen-year old Costa Rican boy brought into Florida for 
sex by a much older man, Marvin Hersh. The case against Mr. Hersh is 
described in my article cited above, text accompanying notes 617-632.
    \9\ Conversation with Professor Mohammed Mattar, Protection 
Project, Johns Hopkins University, July 12, 2004. Professor Mattar has 
reviewed the cases brought by the Department of Justice under the 
Trafficking Victims Protection Act.
    \10\ Jackson, To Honor and Obey, supra note 6, at notes 560-563.
    \11\ Stuart Miller, Sex Gangs Sell Prostitutes over the Internet, 
The Guardian (U.K.), July 16, 2000, at 13.
    \12\ The requirement that some action occur in interstate commerce 
will limit this provision to instances when an intent to extort sex 
existed before the person is brought to the U.S., or whe course of 
conduct extends across state lines. This stops the definition of sex 
trafficking from encompassing all IMO-arranged relationships, 
regardless of the parties' intent.
    \13\ ``International Matchmaking Organizations: A Report to 
Congress,'' at 10 (March, 1999). Some level of oversight has been 
exercised, however, as one IMO agent complained: ``The [IMO] service 
itself is not restricted by the American government, although they are 
real picky about getting your bride into the states--they won't give a 
visa to a bride under age sixteen.'' Donna M. Hughes, ``Pimps and 
Predators on the Internet: Globalizing the Sexual Exploitation of Women 
and Children,'' Coalition Against Trafficking in Women, March 1999, 
citing ``Be a Mail Order Husband (For Men Only),'' World Class Service, 
1996, available at http://www.filipina.com/FAQ.html.
    \14\ See, e.g., ``Kohl Urges I.N.S. to Crack Down on `Mail-Order 
Bride' Industry,'' Press Release, Senator Herb Kohl, February 9, 2001. 
``The INS has ignored the law. It has been dragging its feet. By not 
doing its job, it has allowed the mail-order bride industry to flourish 
unchecked and rife with abuse. Meanwhile, more women walk blindly into 
these marriages with little or no information about their rights. The 
rules are in place. All the INS has to do is enforce them to prevent 
another senseless tragedy.'' Id.

    Senator Brownback. Thank you.
    Is this is a largely or completely unregulated industry, 
the international matchmaking organizations?
    Ms. Jackson. The only regulation that exists has not yet 
been implemented by the United States.
    Senator Brownback. That one that you were citing to is the 
only one that you know of. Is that true of most countries or 
are we behind in the industrialized countries, or are we ahead 
and nobody is really looking at this?
    Ms. Jackson. It is true of most countries, but we are 
behind most industrialized countries, particularly the EU, and 
I would defer to Professors Hughes and perhaps Clark in terms 
of the most up-to-date information about other countries' 
efforts in thess areas, but I think that these industries are 
more severely regulated and recognized as different forms of 
trafficking in other countries.
    Senator Brownback. That is going to lead to my next 
question, which maybe you could combine with this one. What 
have other governments done on this topic that we should learn 
from and try to address?
    Ms. Clark. None that I have been able to find. We do note 
that the Council of Europe has recently pointed to the lack of 
regulation of the industry and, in its April 2004 report on 
domestic slavery, is calling for further recommendations. But 
we have yet to see it. I was in Norway in April and heard about 
a story of a Norwegian man in the north who was just about to 
get his 13th mail order bride from Russia, and there was no law 
that could prevent this from happening. He would bring the 
women in. He would stay married to them until almost the end of 
their trial period, until just weeks before they would 
automatically obtain residency, divorce them--occasionally they 
already had children--and then file for his next mail order 
bride. There was nothing in the existing regulation to prevent 
him from going for bride number 20.
    Dr. Hughes. As I said in my testimony, the Philippines does 
have a law against the operation of mail order bride agencies. 
There was sort of a coinciding of events. During the 1980s, 
almost all mail order brides came from Southeast Asia, 
particularly from the Philippines and Thailand. The Philippines 
passed a law against the operation of these agencies which 
caused the Americans that were onsite in the Philippines to 
come back to the United States with their computers and then 
have to send recruiters in. But also, there was then the 
collapse of the Soviet Union that opened up the borders, and a 
lot of the marriage brokers then moved to eastern Europe. And 
now you will find that the vast majority of women offered in 
these sites are from the countries of the former Soviet Union.
    One of the things I will mention in the research that I did 
on mail order bride agencies in the former Soviet Union, we 
indexed 219 agencies and found 120,000 women in those 219 
agencies.
    Senator Brownback. How many women?
    Dr. Hughes. It is 119,649, just under 120,000 women on over 
200 marriage sites.
    Senator Brownback. Dr. Hughes, go into more detail about 
the nature of these tours. I do not know what they call them, 
engagement tours or whatever.
    Dr. Hughes. They call them romance tours, but I think they 
are really often little more than sex tours because I have read 
a number of accounts in which the men talk about how they go on 
one of these tours a couple times a year. So it really is a sex 
tour. The women on the other end may think these men are coming 
to meet them and possibly marry them, but the men, in effect, 
are really just going there to have sex and have a good time 
for a week or so, and then they come back.
    Senator Brownback. Where are these tours generally to? What 
is the price? How are they advertised?
    Dr. Hughes. I have seen a number of them to Kiev, St. 
Petersburg, Moscow. They are the popular destinations in the 
former Soviet Union. I have also seen them to Manila and to 
Costa Rica. So almost anywhere there is a significant operation 
of either sex tours and the combination of these mail order 
bride agencies, they will run what are called these romance 
tours.
    I think what is really interesting is you look at how often 
these agencies are combination agencies, everything from the 
marriage agencies, sex tour agents, running prostitution rings, 
travel agencies, tour agencies, and they produce pornography, 
and all of that sort of comes together. I think that they then 
use the women any way that they can.
    Senator Brownback. So this is just a criminal conglomerate.
    Dr. Hughes. I think so.
    Senator Brownback. It is what it is, and they use marriage 
as some sort of legitimacy front to a multifaceted sex industry 
organization.
    Dr. Hughes. Yes, I think so. I think especially when you 
realize that by running a mail order bride agency, if you put 
all the ads in the newspapers, you suddenly have several 
hundred women from the community that have signed up. And now 
you know where there are 200 women from that community that 
have expressed an interest in going abroad. I could see how it 
would work that the trafficker says, OK, you can correspond 
with an American man or a while and a couple months go by and 
nothing has really happened. Then he can say, you know, I heard 
there is this really good job abroad working as a waitress in a 
restaurant. It is a really high class restaurant. I am sure you 
would meet a man right away if you went there, and we can help 
find you a husband that way. But, of course, when she reaches 
the destination, she is forced into prostitution.
    Ms. Clark. There are events where they have invited women 
to meet men on these tours, and they are simultaneously 
soliciting the women for jobs abroad. That has been noted 
particularly in Russia.
    Also in Australia I believe there is a law that assisted 
the government to prosecute a man who brought over his seventh 
mail order bride. But I think that current criminal laws 
against immigration fraud could be used in that way because 
those petitions are not made in good faith.
    Ms. Clark. We agree that the mail order bride industry is 
becoming an increasingly large cover for forms of sex tourism, 
and I would agree with Dr. Hughes. In our research on brides of 
Central Asia, we have seen this where men would post 
testimonies of how they had had vacations. On their summer 
vacations, they would go and visit the homes of six or eight 
women. Frequently the families would go all out to welcome the 
men into their homes because this was potentially a way for the 
woman to leave and maybe even for her whole family. The man 
would return to the United States, post a notice on the Web 
site saying this was a lovely trip, I enjoyed meeting 
everybody, I did not find my soul mate, but I will be back 
again next year. The NGOs in Kyrgystan would then tell us that 
in fact these women were multiply used by the men who would 
come through because they felt again reduced to a commodity and 
that the men felt it was their right to try out what perhaps 
they might purchase.
    So in discussions, I think that as we examine the types of 
prevention campaigns that we are continuing to fund in 
countries of origin, these types of practices need to be made 
more explicit, in that the idea of responding to an ad for 
marriage is not necessarily the dream that it might appear to 
be.
    Senator Brownback. So this is one of the next great fronts 
in the modern-day slavery debate and practices we are seeing?
    Ms. Clark. I would say so. I would say in general the use 
of the Internet needs to be studied with much greater 
dedication to see exactly how it is being used. The abuse of 
the mail order bride industry is something that we are 
documenting today, but with the rise of an online community, we 
are starting to see in an American suburb outside of the town 
of Peoria that a man can plug in: Peoria, the ZIP code, young 
girls 14 to 18, and get 900 profiles of young girls who are 
talking about the things that they love, their wants, their 
desires, their dreams.
    Many of us in the room are familiar with the case of 
Lindsey Lavoy, a young woman who met someone through an online 
community chat room in Miami in August 2000 I believe, who 
introduced himself as a 15-year-old who, just like her, loved 
poetry. A few months later he revealed, one, that he loved her 
but, by the way, he was 35. The end of the tragic story is that 
she was convinced to leave with him, was taken to Greece, and 
was put into the pornographic film industry there.
    So these online communities, in ways very similar to the 
mail order bride industry, are now being increasingly used as 
potential recruitment stations and auction blocks. This is 
something that is not regulated, but deserves very focused 
attention as part of the overall war against trafficking, 
Senator.
    Senator Brownback. Ms. Jackson, you talked about jockeys 
getting married many times. I believe that was in your 
testimony.
    Ms. Jackson. It was not that they were getting married many 
times, but I think the specifics of the incident that I was 
describing were servicemen in Korea were being paid between 
$30,000 and $40,000 to marry a Korean woman, bring her to the 
United States, remain with her for the 2 years needed to get 
her permanent residence here, and then divorce her. The 
understanding was that there would be severe sanctions to pay 
for the man if he laid a finger on the woman because they 
wanted to keep her safe for an eventual true marriage, but the 
money was too difficult to resist for these young men.
    Senator Brownback. Dr. Hughes, that is the strangest thing 
you were talking about, about missing body parts and people's 
fetishes. These are actually Internet sites?
    Dr. Hughes. A couple of years ago, the Council of Europe 
commissioned me to do research on how the Internet is being 
used to traffic women, and this was actually some of the work 
that I did. I got into some very dark sides of the Internet. 
This was one particular site that I found, which was a 
combination of a sort of pornography site and a marriage agency 
in which they were essentially recruiting women throughout 
Russia that had disabilities because there are men who are 
known to have sexual fetishes for women with disabilities. They 
were actually marketing these women. The women pathetically 
would have pledges on the site for anyone who would be willing 
to take care of them. They would promise to be loyal to them 
and so forth.
    Senator Brownback. That is just unbelievable. I have seen a 
lot of terrible things, evil things in the world, but that is 
just unbelievable.
    I hope you have all put in your written testimony specific 
items of what you think we should be doing, either amending 
current trafficking laws or the Cantwell proposal that she has 
put forward. It strikes me that this is the logical place we 
would probably be at this point in time in the trafficking that 
was begun several years back. We have finally recognized it and 
then moved on laws against it, and then you would see probably 
other groups then morph into a different way or to get more 
sophisticated about what they were doing and still trying to 
address a potential market, a substantial market. So it seems 
to me that we have to be then moving with how the industry is 
moving to address it and to address it as carefully as we can 
and as well as we can and allowing legitimate groups to 
operate, but illegitimate ones to really suffer the 
consequences.
    I hope also we can start to put on notice vulnerable female 
populations in other countries and people here of right and 
wrong and things that they should be watching out for.
    I hope each of you will be willing to work with us as we 
try to craft through how it is we would do something along 
these lines.
    I was glad to see Director Miller stayed through the 
panel's presentation because he is on the front line in our 
efforts here within the executive branch and we here in the 
legislative branch.
    Anything else, ladies, that you would like to let us know 
about that we should know about?
    If not, thank you very much for the testimony. We will look 
forward to working with you on addressing this problem.
    The hearing is adjourned.
    [Whereupon, at 4:08 p.m., the subcommittee adjourned, to 
reconvene subject to the call of the Chair.]

                                 <all>

</pre></body></html>
